<html>
<title> - STOPPING THE SPREAD OF NUCLEAR WEAPONS, COUNTERING NUCLEAR TERRORISM: THE NPT REVIEW CONFERENCE AND THE NUCLEAR SECURITY SUMMIT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 STOPPING THE SPREAD OF NUCLEAR WEAPONS, COUNTERING NUCLEAR TERRORISM: 
       THE NPT REVIEW CONFERENCE AND THE NUCLEAR SECURITY SUMMIT 

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 21, 2010

                               __________

                           Serial No. 111-90

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-092 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                Jasmeet Ahuja, Professional Staff Member
              David Fite, Senior Professional Staff Member
                 Jessica Lee, Professional Staff Member
            Alan Makovsky, Senior Professional Staff Member
          Pearl Alice Marsh, Senior Professional Staff Member
            Peter Quilter, Senior Professional Staff Member
             Edmund Rice, Senior Professional Staff Member
             Daniel Silverberg, Senior Deputy Chief Counsel
                Amanda Sloat, Professional Staff Member
                  Kristin Wells, Deputy Chief Counsel
       Shanna Winters, General Counsel and Senior Policy Advisor
               Brent Woolfork, Professional Staff Member
                Robert Marcus, Professional Staff Member
        Diana Ohlbaum, Senior Professional Staff Member
      Laura Rush, Professional Staff Member/Security Officer 
   Genell Brown, Senior Staff Associate/Hearing Coordinator
                     Riley Moore, Deputy Clerk 




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Susan F. Burk, Special Representative of the 
  President, for Nuclear Nonproliferation, U.S. Department of 
  State..........................................................     8
The Honorable Bonnie D. Jenkins, Coordinator, Threat Reduction 
  Programs, U.S. Department of State.............................    17
Mr. David Albright, President, Institute for Science and 
  International Security.........................................    45
Mr. Kenneth N. Luongo, President, Partnership for Global Security    54
Christopher Ford, Ph.D., Director, Center for Technology and 
  Global Security, Senior Fellow, Hudson Institute...............    68

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Susan F. Burk: Prepared statement..................    11
The Honorable Bonnie D. Jenkins: Prepared statement..............    19
Mr. David Albright: Prepared statement...........................    48
Mr. Kenneth N. Luongo: Prepared statement........................    57
Christopher Ford, Ph.D.: Prepared statement......................    71

                                APPENDIX

Hearing notice...................................................    96
Hearing minutes..................................................    97
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    99
The Honorable Mike Pence, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................   101
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................   103
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Prepared statement.............................   108
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................   110
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   111
The Honorable Keith Ellison, a Representative in Congress from 
  the State of Minnesota: Prepared statement.....................   113
Written responses from the Honorable Susan F. Burk and the 
  Honorable Bonnie D. Jenkins to questions submitted for the 
  record by the Honorable Russ Carnahan..........................   114


 STOPPING THE SPREAD OF NUCLEAR WEAPONS, COUNTERING NUCLEAR TERRORISM: 
       THE NPT REVIEW CONFERENCE AND THE NUCLEAR SECURITY SUMMIT

                              ----------                              


                       WEDNESDAY, APRIL 21, 2010

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order. In a 
moment I will recognize myself and the ranking member for up to 
7 minutes each for purposes of making an opening statement, and 
then I will recognize the chairman and ranking member of the 
Terrorism, Nonproliferation and Trade Subcommittee for 3 
minutes each to make opening remarks.
    Without objection, all other members may submit opening 
statements for the record. We have two panels today, so I think 
we should do it that way.
    We are all very fortunate that nuclear weapons have not 
been used for nearly 65 years. For most of that time, these 
fearsome weapons were confined to a handful of states. Their 
use was limited, although sometimes just barely, by the Cold 
War doctrines of deterrence and Mutual Assured Destruction.
    But the world has changed dramatically over those six 
decades. As President Obama noted in his Prague speech last 
spring, I quote:

          ``Today, the Cold War has disappeared, but thousands 
        of those weapons have not. In a strange turn of 
        history, the threat of global nuclear war has gone 
        down, but the risk of a nuclear attack has gone up. 
        More nations have acquired these weapons. Testing has 
        continued. Black market trade in nuclear secrets and 
        nuclear materials abound. The technology to build a 
        bomb has spread. Terrorists are determined to buy, 
        build or steal one. Our efforts to contain these 
        dangers are centered on a global nonproliferation 
        regime, but as more people and nations break the rules, 
        we could reach the point where the center cannot 
        hold.''

    In short, the global nuclear nonproliferation regime faces 
three fundamental challenges: Enforcement; a crisis of 
confidence; and the three ``T's''--theft, trafficking and 
terrorism.
    To be effective, the regime's obligations and norms must be 
enforceable with swift and sure punishment for serious 
sanctions.
    As we all know, North Korea was able to accumulate several 
bombs worth of plutonium and build crude nuclear devices and 
likely began a uranium enrichment program aided by A.Q. Khan's 
nuclear trafficking network.
    And Iran secretly built multiple uranium enrichment 
facilities--also with assistance from Khan. According to 
official estimates, Iran could produce enough weapons-grade 
uranium for one bomb within 1 year of expelling IAEA 
inspectors--assuming Iran does not have a covert enrichment 
program.
    Both nations pursued these clandestine activities while 
they were members of the Treaty on the Non-Proliferation of 
Nuclear Weapons, the cornerstone of the global nuclear 
nonproliferation regime. If these states are able to escape 
significant punishment--in the form of crippling sanctions, 
international isolation, or other decisive action--until their 
nuclear weapons capabilities and ambitions are halted and 
reversed, the result could well be a cascade of new nuclear 
aspirants, and the collapse of the NPT and the entire regime.
    The second challenge springs, in part, from the first; the 
NPT and the nuclear nonproliferation regime are facing a 
``crisis of confidence'' on many fronts. Both developed and 
developing states, especially those threatened by North Korea 
and Iran, question whether the regime can really prevent, 
punish or roll back nuclear proliferators. And developing 
countries wonder if the regime really will promote their access 
to civil nuclear applications, while fostering the eventual 
disarmament of the five NPT-recognized ``Nuclear Weapon 
States.''
    The third challenge to the regime is one it was never 
designed to counter: The actions of criminals and terrorists to 
steal or traffic in the means to produce and to use a nuclear 
or radiological weapon. Unsecured or poorly-secured nuclear-
weapons-related material and radioactive material are abundant 
worldwide.
    Today's hearing is intended to assess how the United States 
and the international community can counter these threats 
through multilateral cooperation. We will focus on two events: 
The just-concluded Nuclear Security Summit and the NPT Review 
Conference to come next month.
    At last week's global Nuclear Security Summit, 47 countries 
committed to securing all sensitive nuclear materials from 
theft and use by terrorists in 4 short years. The communique 
and work plan issued at the conclusion of the summit constitute 
a necessary first step--but only the first step--in 
accomplishing this ambitious goal. There will be a formal 
follow-up meeting 6 months from now, and a second summit in 2 
years.
    Some have dismissed the Nuclear Security Summit for 
accomplishing too little in 2 days. But these critics confuse 
the first step with the journey itself.
    The second major focus of this hearing will be the NPT 
Review Conference that begins in less than 2 weeks.
    This convocation of all 189 members of the NPT happens once 
every 5 years. As often as not, these meetings have been riven 
by controversy, deepening the crisis of confidence in the 
efficacy of the nuclear nonproliferation regime as a whole. A 
successful conference--particularly one united in its 
condemnation of Iran's nuclear programs--is absolutely 
essential.
    To accomplish this requires leadership, especially from the 
United States. And an essential part of credible leadership is 
practicing what one preaches.
    For many years, other states have been able to duck their 
own responsibilities in sustaining the nonproliferation regime 
by claiming that the United States has not done enough to 
reduce its own nuclear weapons arsenal to fulfill its 
commitment under the NPT toward disarmament. These states will 
have a tougher case to make after the other events of the last 
2 weeks.
    We have witnessed the long-anticipated signature of a new 
United States-Russia strategic arms reduction treaty that cuts 
the arsenals of both countries by about 30 percent, and 
reestablishes and streamlines the crucial monitoring and 
verification regime that terminated when the START I treaty 
expired in December.
    We have also seen the issuance of a new U.S. Nuclear 
Posture Review Report that, for the first time, elevates 
halting the spread of nuclear weapons and preventing nuclear 
terrorism to a core mission of U.S. nuclear strategy. The NPR 
also strengthened the U.S. assurance not to use or threaten use 
of nuclear weapons against NPT countries that were compliant 
with their obligations under that treaty.
    Critics have complained that the ``New START'' treaty does 
too much or too little; that the Russians got more from it than 
we did--although many Russians claim the reverse; and that it 
will limit our ballistic missile defenses--except that it 
doesn't.
    Critics of the Nuclear Posture Review have also complained 
that it does too much or too little, although the respected 
Democrat and Republican statesmen who led the Congressional 
Commission on the Strategic Posture of the United States, 
former Secretaries of Defense James Schlesinger and William 
Perry, have pronounced it, ``just right.''
    We have taken these steps because it is in the U.S. 
national security interest to do so. The United States, and 
Russia, are better off with fewer nuclear weapons--a position 
strongly supported by Defense Secretary Gates and Admiral 
Mullen, chairman of the Joint Chiefs of Staff. And the United 
States, Russia, France, the U.K. and China--have all pledged 
not to use nuclear weapons against non-nuclear states because 
these ``negative security assurances'' helps us build the 
international support to strengthen the nonproliferation 
regime.
    I am going to cut short the rest of my opening statement 
and include it all in the record and turn to the ranking 
member, Ileana Ros-Lehtinen, for any opening remarks that she 
might wish to make.
    Ms. Ros-Lehtinen. As usual, Mr. Chairman, thank you so much 
for the opportunity. Welcome to our two panels.
    Mr. Chairman, the words threshold and crossroads are used 
so frequently in this town that we can barely take a step 
without being told that we are once again on one or at the 
other, but now it is indisputable that we have reached one of 
the most momentous decision points in our history. The nuclear 
dam is giving way before our eyes in many aspects from North 
Korea's increasing arsenal to the continuing attempts by al-
Qaeda and other extremist groups to secure a radiological bomb 
or a dirty nuke.
    The greatest threat that we face, however, is Iran's 
acquisition of a nuclear weapons capability. Iran's leaders are 
getting away with this stunning assault on U.S. and global 
security while we and our allies appear to be doing nothing but 
huffing and puffing. And the world is watching.
    In January of last year, the new administration argued that 
the lack of progress on curtailing the nuclear ambition of Iran 
was due to the Bush administration's refusal to sit down and 
negotiate with the Iranian regime. We were told that more 
carrots and fewer sticks would do the trick.
    But after months of generous offers and repeated rejections 
with one deadline after another passing without action, nothing 
of substance has been accomplished and Iran continues to 
relentlessly move forward. As it does, the U.S. and others 
place their hopes in yet another new U.N. Security Council 
resolution.
    Day after day we wait for Russia and China to come around 
to a watered down version of the U.S. position even after they 
have made it clear that they will do whatever they can to 
prevent us or anyone else from putting any significant pressure 
on Iran, particularly by cutting off Iran's access to refined 
petroleum products.
    We in Congress must not sit idly by. We must press ahead 
with our efforts to apply pressure on Iran before it is too 
late. H.R. 2194, the Iran Refined Petroleum Sanctions Act, also 
known as IRPSA, was introduced by Chairman Berman and me, along 
with several other members of this committee and the House. It 
strikes that a key weakness on the Iranian regime, namely its 
dependence on imported petroleum products, especially gasoline.
    The House passed our version on December 15 by a vote of 
412 to 12, and the Senate has adopted its own version. It is my 
hope that conference discussions will move quickly, that the 
bill will not be watered down and that we can send the 
strongest version of IRPSA to the President's desk for his 
signature.
    Lieutenant General Burgess, the Director of the Defense 
Intelligence Agency, and General Cartwright, the vice chairman 
of the Joint Chiefs of Staff, testified last week that Iran 
could produce enough bomb grade fuel for at least one nuclear 
weapon within a year. The New York Times reported yesterday 
that according to the Pentagon, Iran may be able to build a 
missile capable of striking the United States by 2015.
    Yet despite this obvious urgency, the administration 
refuses to come into compliance with its legal obligations to 
inform the Congress on those assisting Iran's nuclear, 
biological, chemical and missile programs. The State Department 
is ignoring current mandates in the Iran Sanctions Act 
requiring sanctions on those who again are assisting Iranian 
proliferation activities.
    And despite the obvious urgency, Iran was not on the agenda 
of last week's Nuclear Security Summit. All so-called 
controversial items were set aside to ensure that the summit 
was a success. The President did find time to go after our 
ally, Israel, lecturing it on the need to sign the Nuclear Non-
Proliferation Treaty, a demand which has been at the 
centerpiece of the longstanding strategy by Arab states to 
distract attention from their own nuclear plans.
    No mention was made, however, of Israel's unwavering stand 
against Iran, nor of Israel's support of the Convention on the 
Physical Protection of Nuclear Materials, the International 
Convention of the Suppression of Acts of Nuclear Terrorism, the 
United Nations Security Council Resolution 1540, the Global 
Initiative to Combat Nuclear Terrorism, the U.S.-led Megaport 
Initiative, as well as Israel's financial and technical 
assistance to and its active participation in the Illicit 
Trafficking Database reporting system of the International 
Atomic Energy Agency.
    In the end, virtually nothing emerged from the summit but 
unenforceable promises by the heads of state to do good things 
that they should have done long ago. I do not expect any 
greater success at the upcoming NPT Review Conference. The last 
meeting, in 2005, ended in gridlock because several countries 
could not bring themselves to tell Iran that it shouldn't 
develop nuclear weapons nor engage in activities that could be 
used for that purpose.
    The problem stems from the prevailing interpretation of 
Article IV as guaranteeing each signatory nation an absolute 
right to enrich and reprocess nuclear fuel as long as they 
claim that it is for peaceful purposes, but a fair reading of 
Article IV reveals no such grant. Instead, Article IV places 
far-reaching conditions on the exercise of this supposed right, 
namely conformity with the overarching purpose of the entire 
document, which is to prevent the spread of nuclear weapons.
    If we are to secure our survival and to effectively prevent 
the world's most dangerous weapons from falling into the hands 
of rogue regimes like Iran, the United States must state 
clearly and repeatedly our position on Article IV of the NPT 
that contains no guarantee of an absolute right to such 
technology.
    Due to time, Mr. Chairman, I will refrain from addressing 
other issues relating to the topic of today's hearing, 
including the recent START agreement and the Nuclear Posture 
Review. Many aspects of these are troubling and some are 
dangerous.
    I look forward to discussing these, Mr. Chairman, at a 
future hearing. Thank you for the time, sir.
    Chairman Berman. I thank you. And now Mr. Sherman, the 
gentleman from California, chairman of the Terrorism, 
Nonproliferation and Trade Subcommittee, is recognized for 3 
minutes.
    Mr. Sherman. President Obama should be commended for 
putting importance and focus on nonproliferation for our 
successes at the Nuclear Security Summit and with the START 
Treaty.
    We have done a lot to cause responsible countries to act 
responsibly with regard to their nuclear materials. However, 
there is a bipartisan foreign policy embraced by our media, 
academia and the State Department under the last three 
administrations which can only be viewed as a megaton of 
failure when it comes to preventing irresponsible states from 
developing nuclear weapons.
    We are told that missile defense will be the answer, but 
you can smuggle a weapon into the United States inside a bale 
of marijuana. You can thereby have pinpoint accuracy as to 
where you deliver it plus plausible deniability. If an American 
city is destroyed, it will probably not be a missile that 
delivers the bomb.
    And we were told that deterrence will be enough because, 
after all, we survived the Cuban Missile Crisis with luck and 
with cool heads. But how many more times dare we roll the dice 
when we go eyeball to eyeball with other hostile nuclear 
states, and do we really think that Ahmadinejad or Kim Jong-Il 
will be as responsible in the future as Khrushchev was during 
the Cuban Missile Crisis.
    Two illustrations of the failure of our policy. The first 
is the continuing illegality at the State Department where they 
violate the Iran Sanctions Act every day for over 10 years. CRS 
and the State of Florida have each identified well over 30 
action investments in the Iran oil sector that should have 
triggered, at minimum, identification by the State Department. 
That is not optional. You can waive sanctions. You cannot waive 
naming and shaming, and yet three administrations have decided 
to violate U.S. law to protect Tehran's business partners.
    Likewise, the State Department unfortunately seems to 
interpret Article IV of the NPT as saying that any nation in 
compliance with NPT has an inalienable right to the full fuel 
cycle. That renders the NPT a virtual nullity as a practical 
matter.
    But the greatest problem is that we have a policy of 
begging and persuading Russia and China to help us with 
sanctions, but we refuse to threaten or bargain. As a result, 
China is told they will have full access to American markets, 
even though they subsidize North Korea, invest in Iran and 
protect Iran from international sanctions.
    Russia is told that our policies toward South Ossetia or 
Trans-Dniester Moldova will not be affected by their policies 
toward Iran. No wonder we have failure. It is surprising that 
such a broad array of the foreign policy establishment embraces 
this policy of failure.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from California, Mr. Royce, ranking member of the 
subcommittee, is recognized for 3 minutes.
    Mr. Royce. Thank you, Mr. Chairman. I will be brief. As a 
subcommittee chairman, I held a hearing in 2005 previewing the 
last NPT Review Conference. Not much was accomplished in New 
York back then at the conference. That wasn't because the past 
administration was involved, as we are likely to hear, but 
because the treaty has some fundamental problems.
    For one, the zero nuclear weapons world that it is premised 
upon appears in the back mirror. China and Pakistan and others 
are bolstering their arsenals. These countries remain 
unimpressed by the New START, and unfortunately the majority of 
countries have shown little interest in taking meaningful 
action against those exiting the treaty, such as nuclear North 
Korea, or those racing toward nuclear weapons, mainly Iran.
    Another big problem is that the NPT Treaty has been twisted 
to permit countries to develop the technology to enrich 
uranium, leaving them essentially nuclear weapon states without 
violating the NPT. Now, I think it is an NPT violation, but 
that is the way it has been twisted.
    As the New York Times reported on Secretary Gates' wake up 
memo, and I will use the New York Times' words here, ``Iran 
could assemble all the major parts it needed for a nuclear 
weapon--fuel, designs and detonators--but stop just short of 
assembling a fully operational weapon and remain a signatory of 
the NPT.'' Neither this nor past administrations have 
challenged this misinterpretation, deeply wounding the treaty.
    The NPT Review Conference operates on consensus, which 
assures lowest common denominator results. One hundred and 
eighty-nine countries will be there, including Iran. That makes 
the 15 member Security Council look efficient and look 
virtuous. The unfortunate fact is that many countries are 
sympathetic to Iran's nuclear program. One administration 
witness will testify that the conference will not solve all the 
problems or answer all the tough questions. Now, that is an 
understatement.
    The NPT is a norm against nuclear nonproliferation. 
Strengthen it if we can, but in trying, let us not sacrifice 
critical actions for the sake of perceived goodwill as the 
administration is doing with important Iran sanctions 
legislation, and let us not pretend that this treaty is giving 
us security. It is not.
    Remember, an illusion of progress can be more dangerous 
than obvious conference failure when the stakes are so high. 
Let us pass the Iran sanctions bill. I mean a vigorous bill, 
not a watered down bill, because 2015 and the capacity for an 
Iranian leader to hit the United States if the urge to be a 
martyr hits him will come soon enough. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    I am now pleased to introduce our two panels. Ambassador 
Susan Burk plays a lead role in preparing for the NPT Review 
Conference. She previously served as first deputy coordinator 
for homeland security in the State Department's Office of the 
Coordinator for Counterterrorism.
    She has served as acting assistant secretary of state for 
nonproliferation, chief of the International Nuclear Affairs 
Division of ACDA, the U.S. Arms Control and Disarmament Agency, 
and director of the Office of Regional Affairs and State. While 
at ACDA, she was the chief of the Non-Proliferation Treaty 
Extension Division, leading U.S. preparations for the 1995 NPT 
Review and Extension Conference.
    Ambassador Bonnie Jenkins currently serves as the State 
Department's coordinator for threat reduction programs in the 
Bureau of International Security and Nonproliferation. 
Previously she served as counsel to the 9-11 Commission, a 
consultant to the 2000 National Commission on Terrorism and 
general counsel to the U.S. Commission to Access the 
Organization of the Federal Government to Combat Proliferation 
of Weapons of Mass Destruction. A retired Naval Reserve 
officer, she recently completed a year-long deployment to the 
U.S. Central Command in CENTCOM.
    I think I will wait and introduce the second panel when 
they come forward. Ambassador Burk, your entire statement will 
be part of the record. You are free to summarize it and make 
the points you want. Why don't you go ahead and lead off?

       STATEMENT OF THE HONORABLE SUSAN F. BURK, SPECIAL 
REPRESENTATIVE OF THE PRESIDENT, FOR NUCLEAR NONPROLIFERATION, 
                    U.S. DEPARTMENT OF STATE

    Ambassador Burk. Well, thank you very much, Chairman 
Berman, Congresswoman Ros-Lehtinen and members of the committee 
for giving me the chance to be here today to talk about our 
preparations for the NPT Review Conference, which will start in 
less than 2 weeks, as someone pointed out.
    Let me just offer some brief highlights or lowlights of my 
remarks, and then I will look forward to your questions. You 
mentioned the President's Prague speech, and I would just note 
that at that time he called the basic bargain of the NPT, what 
we call the three pillars, he called it sound.
    Countries with nuclear weapons will move toward 
disarmament, countries without nuclear weapons will not acquire 
them, and all countries can access peaceful nuclear energy. 
There are, as has been pointed out, nearly 190 parties to the 
treaty, and that puts a premium on cooperation as we work with 
others to achieve common goals.
    The NPT and the global nonproliferation regime have been 
under great stress, as we have heard already. This has been a 
result of the growing availability of sensitive nuclear 
technology, A.Q. Khan that we are all very concerned about, the 
continued defiance by North Korea and Iran of efforts to bring 
them into compliance with their international nonproliferation 
obligations and the limitations that some states continue to 
impose on the verification role of the International Atomic 
Energy Agency safeguards program, the IAEA.
    As a result, the United States is not approaching the 
upcoming NPT Review Conference in any business as usual spirit. 
President Obama has put a strengthened NPT at the center of 
American nonproliferation diplomacy, and the United States has 
taken a series of steps to help achieve that goal.
    But I use the world help here very deliberately. The U.S. 
cannot realize the NPT vision on its own. It will take all 
parties working together, setting aside stale debates and 
perspectives that have too often led to gridlock, if we are to 
accomplish the balanced review of all three pillars of the 
treaty that most parties are insisting that they want.
    I have spent the last 10 months engaging scores of NPT 
parties from all regions to gauge how best to do that, and 
these consultations have revealed a broad range of views on the 
treaty and on the review conference, but all the states that I 
have consulted share the firm conviction that the NPT is 
critical to the maintenance of regional and international peace 
and security, and this certainly is the U.S. view. We are 
encouraging these parties to approach the review conference as 
a real opportunity to focus on common goals and renew the 
collective commitment to the principles and basic bargain of 
the treaty.
    So what are the issues that we want the review conference 
to address and the outcomes that we seek? The NPT is first and 
foremost a treaty aimed at preventing the further spread of 
nuclear weapons while ensuring that the peaceful benefits of 
nuclear energy are made available to states fulfilling their 
nonproliferation commitments.
    But the treaty's negotiators understood that non-nuclear 
weapon states would be more likely to foreswear nuclear weapons 
permanently if the five states that possessed them at that time 
pledged in good faith to seek to eliminate them, and this 
understanding holds today.
    We are making clear that we take our obligations under the 
NPT seriously and we are fulfilling them. We are emphasizing 
first that recent actions, including the signing of the New 
START treaty, the release of the Nuclear Posture Review and our 
commitment to starting FMCT negotiations and seeking 
ratification of the CTBT, clearly demonstrate the U.S. 
commitment to fulfilling its disarmament responsibilities under 
Article VI of the NPT.
    But, secondly, we are emphasizing that a robust and 
reliable nonproliferation regime is a necessary condition for 
progress on disarmament, and we are working to leverage 
international support for our own efforts to gain broad support 
for the treaty's nonproliferation goals.
    And, finally, we are emphasizing that all parties, nuclear 
weapon states and non-nuclear weapon states alike, have 
responsibility for supporting the treaty's nonproliferation 
goals, including by strengthening the IAEA and its safeguard 
system and by dealing honestly and seriously with cases of 
noncompliance.
    The review conference is an opportunity to reaffirm the 
IAEA's central role in NPT verification and the goal of 
universal adherence to the additional safeguards protocol, 
which we believe, together with comprehensive safeguard 
agreements, should be considered an essential standard for 
verification.
    It is not enough to detect violations, however. 
Noncompliance with nonproliferation obligations erodes 
confidence in the treaty and in the global regime and must be 
met with real consequences including, as necessary, actions by 
the U.N. Security Council.
    The U.S., together with a number of other countries, has 
been considering how the treaty parties might address the issue 
of abuse of the NPT's withdrawal provision. This is 
specifically how to dissuade and respond to the possibility of 
an NPT party withdrawing from the treaty while in violation of 
its NPT obligations, an effort to evade its sins. We will work 
with partners to address this issue fully at the review 
conference.
    Finally, we are looking forward to contributing to a 
constructive discussion about international cooperation in the 
peaceful uses of nuclear energy that is consistent with the 
NPT's fundamental nonproliferation undertaking and with 
international standards of safety and security. Taking steps to 
strengthen the peaceful uses pillar is especially important 
today in view of the renewed interest in civil nuclear power, 
which has grown worldwide in response to concerns about climate 
change and energy security.
    Here too a strong and reliable nonproliferation regime is 
essential for the fullest possible access to nuclear energy for 
peaceful purposes. We know too well--I know too well--the 
challenges of reaching agreement on a final report or other 
document when so many countries are involved, when the agenda 
is so broad and consensus, as has been pointed out, is the 
order of the day.
    We expect, however, that the large majority of NPT parties 
will participate at this meeting in good faith and share our 
interest in revalidating the treaty's indispensable 
contribution to global security, but the United States is not 
approaching the review conference as an end in itself. It is a 
critical milestone in the broader international effort to 
strengthen the regime, but it will not solve all the problems 
or answer all the tough questions.
    The hard work of maintaining and reinforcing the 
international nonproliferation regime will continue for years 
to come, and the discussions that take place in New York in 2 
weeks and the ideas that are put forward there can contribute 
valuable momentum to our efforts at the IAEA in Vienna, the 
Conference on Disarmament in Geneva and the United Nations, and 
that will remain a key U.S. objective for the review conference
    Thank you again, Chairman Berman and members, and I look 
forward to answering your questions.
    [The prepared statement of Ms. Burk follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Berman. Thank you very much, Ambassador. 
Ambassador Jenkins, we look forward to hearing from you. Your 
entire statement will be part of the record as well.

  STATEMENT OF THE HONORABLE BONNIE D. JENKINS, COORDINATOR, 
      THREAT REDUCTION PROGRAMS, U.S. DEPARTMENT OF STATE

    Ambassador Jenkins. Thank you, Chairman Berman and Ranking 
Member<greek-l>s deg. Ros-Lehtinen and esteemed members of the 
committee, for the opportunity to report on the strides and the 
efforts that the Department of State is making to reduce the 
chances of an attack by terrorists armed with nuclear weapons.
    I would like to request that my prepared testimony be 
included in the record of today's hearing, and I will present a 
shorter version here in my oral statement.
    Last spring, President Obama called for international 
cooperation and pledged American leadership in the effort to 
prevent nonstate actors from acquiring weapons of mass 
destruction. As Coordinator for Threat Reduction Programs, I am 
pleased to share with you the underlying goals of the Nuclear 
Security Summit, some results from the summit, including 
commitments made by the participants, and thoughts for initial 
steps following the summit to meet the President's vision to 
secure all vulnerable nuclear material in 4 years.
    At the largest gathering of world leaders ever convened in 
Washington, 50 leaders representing various nations and 
international bodies came together to recognize the following: 
It is increasingly clear that the danger of nuclear terrorism 
is one of the greatest threats to our collective security; 
terrorist networks such as al-Qaeda have tried to acquire the 
material for a nuclear weapon, and if they ever succeeded they 
would surely use it; and were they to do so it would be a 
catastrophe for the world, causing extraordinary loss of life 
and striking a major blow to global peace and stability.
    The consensus on these topics was the impetus for the joint 
communique and work plan agreed upon at the summit. To present 
such catastrophic consequences, the solution is to keep the 
essential ingredients of nuclear bombs--plutonium and highly 
enriched uranium--out of the hands of those with a level of 
intent.
    The communique commits leaders to principles of nuclear 
security and if implemented would lead to efforts to improve 
security and accounting of nuclear materials and strengthened 
regulations. The communique also launches a summit work plan 
issued as guidance for national and international actions that 
carry out the pledges of the communique.
    In addition to the communique work plan, several nations 
made significant commitments, which will strengthen the global 
effort to maintain nuclear security and nonproliferation. For 
example, Ukraine agreed to get rid of all of its highly 
enriched uranium within 2 years, and Canada has agreed to 
return a large amount of spent highly enriched uranium fuel 
from their medical isotope production reactor to the United 
States. The United States and Russia reached an agreement on 
plutonium disposal which commits both countries to eliminate 
enough total plutonium for approximately 17,000 nuclear 
weapons.
    This summit was intended to lay the groundwork for 
activities to improve security for vulnerable nuclear materials 
by 2013. We anticipate and welcome working with as many nations 
as possible on this critical effort, and this international 
initiative will continue in the future. South Korea has already 
pledged to hold the next security summit in 2012. The summit 
shepherds will consult on the precise timing of follow on 
events at their next meeting later this year.
    Overall, the summit was a call to action for countries 
around the world. It provided an unprecedented forum to raise 
awareness of the threat of nuclear terrorism to the highest 
levels of foreign government. It reinforced the importance of 
existing nuclear security mechanisms and urged additional 
participation in mechanisms that already exist.
    The summit emphasized the need for the strongest possible 
political commitments by each state to take responsibility for 
the security of the nuclear materials under its control, to 
continue to evaluate the threat environment and strengthen 
security measures as changing conditions may require and to 
exchange best practices and practical solutions for doing so.
    The summit also stressed the principles that all states are 
responsible for ensuring the best security of their own nuclear 
materials, for seeking assistance to do so if necessary and 
providing assistance if asked.
    We must work urgently to reduce the risk of terrorist 
criminal organizations or extremists getting their hands on 
nuclear weapons or all the materials, expertise and technology 
necessary to build them. We cannot afford to be divided in this 
endeavor. By bringing together our allies and other states 
around the globe at the summit and in other future forums, we 
will ensure that we bring every resource to bear on meeting 
this important challenge.
    Thank you for the opportunity to speak today, and I look 
forward to your questions.
    [The prepared statement of Ms. Jenkins follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Berman. Thank you both very much, and I will now 
yield myself 5 minutes to begin the questioning.
    Ambassador Burk, you mentioned the Additional Protocol, and 
you talked of making more serious consequences for breaking out 
of the treaty. You did not describe what you thought the 
consequences should be, but could you address those two issues 
in the context of why this review conference matters?
    It does not amend the treaty. What is our hope in terms of 
success from this conference, and how does it execute itself or 
how does what comes out of that conference get implemented in 
terms of the real world? I mean, Iran, I believe, at one point 
accepted the Additional Protocol and never ratified it and 
doesn't allow it to be utilized.
    What makes this conference a meaningful conference, and 
where does the conduct of both North Korea and Iran stand in 
the context of this conference? How is that going to be 
addressed?
    Ambassador Burk. Do I have 15 minutes?
    Chairman Berman. 3 minutes and 30 seconds.
    Ambassador Burk. Those are the $64,000 questions. Why does 
it matter? I think it matters. You know, it is a review 
conference. It happens every 5 years, and we keep reminding 
people that there is no operational consequence. It is not 
taking a decision, as it did in 1995, to extend the treaty.
    But it matters I think this year because the regime, as I 
said, is under such challenge and there are so many questions 
about the viability of the treaty, whether it is overtaken by 
events, has it outlived its usefulness.
    I think our view is that it is more important than ever 
because you need that fundamental rule of law as a platform in 
order to move forward on a lot of these other activities. So it 
matters because it comes at a time when the regime is under 
siege. It comes at a time----
    Chairman Berman. But why does what they do become the rule 
of law, as opposed to the Young Democrats passing a resolution?
    Ambassador Burk. Okay. Well, I am not the lawyer. I am just 
saying the treaty itself has almost universally adhered to sets 
of certain international legal standards. You have 
international lawyers who can speak to that.
    Chairman Berman. Okay.
    Ambassador Burk. I think it is the barrier. So it matters 
because it provides an opportunity for states collectively to 
reaffirm their support for the treaty, which is an important 
political signal.
    It provides an opportunity to discuss steps that could be 
taken in other fora, in the IAEA and elsewhere, to strengthen 
implementation. It provides an opportunity to talk about the 
importance of compliance and the damage that noncompliance 
does. They can have that sort of discussion.
    On success, I think what we are looking for is broad 
affirmation of the treaty by most parties, if not all parties. 
We are looking for a discussion that will identify steps that 
could be taken, commitments that states are prepared to take. 
That may not be a unanimous commitment, but if the vast 
majority of states make it clear that they are prepared to 
accept certain commitments, strengthen safeguards and so forth 
that is important and we will take that and we will take it to 
the IAEA.
    And on North Korea and Iran, I think the issue there is 
just to continue to draw attention to the very debilitating 
effects of noncompliance on the regime and to encourage the 
parties to see it for what it is and to make a strong 
commitment to deal with noncompliance, and I think that is 
where we have come up.
    We have been talking to other partners about how do we deal 
with the problem of a state that violates the treaty and then 
announces it is withdrawing as a way to evade penalties. We 
think that the parties could agree to take some steps in that 
regard that would signal clearly that a state will remain 
accountable for those violations, even if it chooses to 
withdraw.
    Chairman Berman. A number of people left government service 
from the arms control nonproliferation bureaus on the shakeup 
during the previous administration. Are you at a point now 
where you feel adequately staffed to both do your review 
conference obligations, and all the other charges you have, in 
terms of nonproliferation?
    Ambassador Burk. For the review conference we have gotten 
ourselves staffed up, and I am feeling comfortable about that 
now. I think it is a rebuilding process that will take some 
time, but we are well on the way.
    Chairman Berman. Okay. I am going to cut myself short by 7 
seconds and recognize the ranking member for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. A few 
questions. Number one, very few people believe that a new U.N. 
Security Council resolution will be strong enough to even deter 
Iran, so regardless of whether or not there is a new resolution 
what else is the administration planning to do next to apply 
pressure on Iran?
    Secondly, in his speech in Prague in April 2009, President 
Obama said, ``We will support Iran's right to peaceful nuclear 
energy with rigorous inspections.'' So on that, is the U.S. 
position that Article IV of the NPT that Iran and other 
countries claim give them an absolute right to all aspects of a 
nuclear program actually conditioned on their agreeing to 
rigorous inspections?
    Thirdly, related to that, does that mean that the U.S. 
believes that the exercise of any right under Article IV is 
contingent upon the ratification and implementation of the 
Additional Protocol by Iran and other countries? Thank you, 
Ambassadors.
    Ambassador Burk. On the issue of Iran sanctions, I am not 
in the position to address that question. I would be happy to 
take it back and provide an answer. I just don't know what more 
we are doing. We are clearly pursuing a dual pressure track and 
consulting with the P5-plus-1 on sanctions, but I don't have 
insight into any of the specifics there, so if I could take 
that back and respond, please?
    On Article IV, I think we have made it very clear that Iran 
has essentially forfeited its rights to technical assistance 
and nuclear cooperation because it is in violation of its NPT 
obligations, and there are a number of Security Council 
resolutions that pertain, and it is not accepting rigorous 
inspections.
    As you mentioned, it has suspended or reverted back to an 
earlier form of the Additional Protocol and so I think that 
takes it off the table on that issue. Our view is that we do 
not encourage or promote development of sensitive technologies. 
As a matter of policy, I think from the beginning of the 
nonproliferation era we haven't encouraged or promoted or 
provided assistance in sensitive technologies.
    Any such assistance that would be undertaken would have to 
be undertaken under the strictest nonproliferation conditions, 
and I think at this point we are working with many of our 
partner and our nuclear supplier partners to encourage the 
adoption of the Additional Protocol as the new standard of 
verification and ultimately a condition of supply, but we are 
not there yet.
    Ms. Ros-Lehtinen. Ambassador Jenkins? I don't know if you 
wanted to add anything to that.
    Ambassador Jenkins. Thank you. No. I probably would just 
back what Ambassador Burk has said about taking it back and 
getting some more information to you and getting a response as 
fast as possible.
    Ms. Ros-Lehtinen. That would be welcome. Thank you. And 
then lastly, the Nuclear Posture Review's limitations on U.S. 
deterrence policy undermine<greek-l>s deg. the U.S. nuclear 
umbrella that defends many of our allies from attacks.
    Are you concerned that calling that protection into 
question will persuade these countries to develop their own 
nuclear arsenal to provide for their own defense?
    Ambassador Burk. Congresswoman, my understanding is that we 
consulted extensively and very closely with our allies and 
partners throughout the development of the Nuclear Posture 
Review.
    I was not personally involved. I believe that it was made 
clear in the statements when this was rolled out that our 
extended deterrent guarantees continued to be intact and remain 
in effect.
    Ms. Ros-Lehtinen. And then since I still have some time, 
the Russian Government is adamant that the recently signed 
START agreement links reductions in strategic nuclear forces to 
restrictions on strategic missile defense. The Obama 
administration says this is not so.
    Are the Russians lying? Why would they repeatedly say this 
and the Obama administration to believe it to be true, our good 
partners? Why haven't we insisted that they stop saying it if 
it is not true, as the Obama administration believes it is not 
true?
    Ambassador Burk. I don't know the answer to that, but I 
believe what the administration is saying about this issue.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Chairman Berman. The gentleman from California, Mr. 
Sherman, is recognized for 5 minutes.
    Mr. Sherman. One last sentence from my opening statement, 
and that is that smart sanctions are dumb. The idea that we are 
going to get Iran to abandon its nuclear program by adopting 
sanctions that don't affect the Iranian economy, but somehow a 
few of the leadership, is absurd. Ahmadinejad isn't going to 
give up nuclear weapons just so he can visit Disney World.
    Now, Ambassador Burk, you have a difficult job. You use all 
your persuasive abilities to try to get countries to treat 
these issues the way we would like them to, but sometimes 
persuasion isn't enough. Have you been able to tell any country 
that American aid to that country or trade with that country 
will be affected even slightly by how they behave at the review 
conference and on nonproliferation issues in general?
    Ambassador Burk. Thank you. That is a great question. I 
have to say that although we can invite who we want to the 
review conference because we have been pretty successful in 
gaining broad international membership, I have been pretty 
selective in who I have talked to, and I would have to say that 
I have found a tremendous amount of support for the U.S. 
posture and U.S. proposals in my consultations.
    Mr. Sherman. You have complimented me on my question, but 
you are evading it. Have you been able to tell any country that 
aid or trade is conditioned at least in some part on their 
behavior at the review conference?
    Ambassador Burk. I have not because I haven't had to.
    Mr. Sherman. So every nation coming to the review 
conference is going to agree with us on all the important 
issues?
    Ambassador Burk. No, not every nation, but I am only 
talking about the nations that I have personally engaged with.
    Mr. Sherman. Speak on behalf of the administration in 
general. Has the administration secured the cooperation and 
agreement of every nation to all of our policies? Obviously 
not. Has anyone with the administration told those companies 
that have not fully embraced our positions on important issues 
that aid or trade could be affected?
    Ambassador Burk. I am not personally aware that we have 
done that. No.
    Mr. Sherman. I think you are absolutely assured that we are 
going to fail to achieve all of our important objectives at 
this conference, and you have just identified the reason.
    Now, let me see. The ranking member has brought up the 
issue of whether the administration is trying to pressure 
Israel to sign the NPT. I would just say that friends don't ask 
friends to commit suicide and so I hope you are not doing so.
    As long as there are countries in the world calling for the 
destruction of a state, it is hard to ask that state not to 
develop whatever it thinks it might need to do to protect 
itself from total annihilation. Nobody is threatening the total 
annihilation of China or Russia or Britain or France, and yet 
they have nuclear weapons.
    The final concern I have is do you in the foreign policy 
establishment--I will ask this to Ms. Jenkins--have an 
obligation to report to this country that our nonproliferation 
efforts are failing and that we should develop a robust civil 
defense program?
    I believe that a firefighter does great damage if he or she 
gives the illusion that they are going to put out the fire and 
so the adjoining neighbors don't evacuate or take protective 
action. Is that in effect what you are doing, giving us the 
illusion that you may be able to prevent proliferation and 
thereby lulling us into not having effective civil defense?
    Ambassador Jenkins. Thank you for that question. I will 
just speak just in terms of what I have been working on, which 
is securing nuclear material.
    I think that having the summit, which had 47 nations and 
three international organizations, was in fact a call to the 
community, to the United States and the world that there is a 
problem that we need to address and that there is a problem 
with 2,000 tons of highly nitrated plutonium that we have to 
ensure is secure.
    It is a call saying that there is something that has to be 
fixed, and by having this summit we actually showed an effort, 
an international effort and a multilateral effort, to try to do 
something about that issue.
    Mr. Sherman. I thank you for your answer, and it is long 
past time that we start bargaining, offering concessions and/or 
threatening other nations with loss of trade in order to 
achieve our objectives here. I yield back.
    Chairman Berman. Speaking of time, the gentleman's time has 
expired and the gentleman from New Jersey, Mr. Smith, is 
recognized for 5 minutes.
    Mr. Sherman. Thank you very much, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Chairman. Ambassador Jenkins and 
Ambassador Burk, as we all know weapons of mass destruction are 
by definition unthinkable and unconscionable, but since 
Hiroshima and Nagasaki and the addition of several nuclear 
states, including the PRC, Russia, Pakistan, India, Britain and 
France, efforts to responsibly mitigate the threat, including a 
myriad of treaties like the NPT, are among the strategies that 
successive administrations have pursued. Provided we can assist 
on adequate verification, it seems to me those treaties are 
extremely useful.
    In the 1980s I voted against, and I am sure Mr. Berman 
remembers this very well, the U.S. binary weapons efforts that 
were made. Ed Bethune offered the amendments, and I, like so 
many others, unalterably opposed the creation, stockpiling and 
use of biological weapons.
    It is worth noting that the U.S. gave up its bioweapons 
program in 1969, and the United States has some 31,000 tons of 
chemical weapons and is currently destroying stocks of mustard 
gas, Sarin DX and blister agents, and current policy is to 
destroy all of it, 100 percent, by 2012.
    As we all know, during the Cold War the Soviet war planners 
knew that even a massive conventional attack against Western 
Europe would likely provoke a nuclear response from the West, 
especially with the use of tactical nukes. That policy, coupled 
with Mutual Assured Destruction or MAD, the use of a triad of 
delivery means--bombers, subs and ICBNs--frustrated Soviet 
planners and therefore deterrents worked.
    That said, I am concerned that the President may be 
substantially weakening U.S. deterrents from biological and 
chemical attack. Policy and words do matter. On January 12, 
1950, Dean Acheson said that he did not include South Korea 
within our defensive perimeter. Kim Il-Sung took note, and 
historians have debated this thereafter, but many think that 
that gave the green light for North Korea to invade South 
Korea.
    Now, in looking over the President's new policy is it true 
that if we are attacked by biological or chemical weapons, but 
those states happen to be in compliance with the NPT, U.S. will 
not use nuclear weapons against that state?
    I thought Charles Krauthammer did an excellent job in his 
op ed in The Washington Post on the 9th of April, and it was 
headlined ``Obama administration's Nuclear Doctrine Bizarre, 
Insane.'' He points out--imagine this scenario--hundreds of 
thousands are lying dead in the streets of Boston after a 
massive anthrax or nerve gas attack. The President immediately 
calls in the lawyers to determine whether the attacking state 
is in compliance with the NPT.
    If it turns out that the attacker is up to date with its 
latest IAEA inspections, well, it gets immunity from nuclear 
retaliation. Our response is then restricted to bullets, bombs 
and other conventional munitions. However, if the lawyers tell 
the President that the attacking state is NPT noncompliant, we 
are free to blow the bastards to nuclear kingdom come. This is 
quite insane.
    So my question would be, is that really the policy? Are we 
talking about since we don't have a credible biological or 
chemical capability, and again I absolutely renounce and I am 
sure everybody on this panel wouldn't want that ever used. I 
remember the talk about what the plume would actually look like 
if chemical munitions were used and the huge amount of 
suffering and death that would be visited upon people.
    But if you take away all legs of our deterrence capability 
and say that is off limits, is that really what the 
administration is saying? Ambassador Burk or Ambassador 
Jenkins?
    Ambassador Burk. Yes. I think what Secretary Gates said 
when I watched the roll out was that we were making this 
assurance not to use nuclear weapons, but in the event of a 
chemical or biological attack we reserve the right to respond 
with overwhelming conventional force, and I believe----
    Mr. Smith. Shock and awe? I mean, we had that in Iran.
    Ambassador Burk. No. No. I am just repeating to you what 
the senior Defense Department have said, what I heard them say 
publicly. But there was also, my understanding, a provision 
that they reserved the right to revisit this policy in the 
event that the biological problem, if that developed in ways 
that had not been foreseen.
    Mr. Smith. But to a rogue state or to a group of 
individuals, terrorist organizations who might be holed up in 
Afghanistan or somewhere else, a nuance policy does not clearly 
convey massive retaliation in my opinion, and I would 
appreciate your opinion, not necessarily what senior staff says 
or what Gates says. Doesn't that make us more susceptible to 
that kind of attack, and does that take away the deterrence 
capability or at least weaken it in any way?
    Ambassador Burk. My opinion isn't----
    Chairman Berman. One sentence.
    Ambassador Burk [continuing]. Worth a whole lot compared to 
Secretary Gates, but no. I would have to say I don't believe 
so, and I do believe that he made a very clear statement about 
what the U.S. would do, what its options were as a response in 
that event, and I think he was quite clear.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Georgia, Mr. Scott, is recognized for 5 minutes.
    Mr. Scott. Thank you very much, Mr. Chairman. I think in 
response to Congressman Smith's point, which is a very good 
point, and my hope is that that position will be clarified, but 
I would think that if we recall the administration has that 
caveat of revisiting that situation and with the clear 
understanding that in no way would our policies ever put this 
country at any risk.
    I also think that in many respects as you are moving on 
this issue and when you are in the position of leadership that 
it is important that we lead from a point of nonproliferation, 
from a position of where we want to be. But certainly it has 
been clear time and time again with this administration that we 
reserve the right to revisit this issue based upon the 
circumstances that present themselves and that no way does the 
Obama administration stand on any position other than to move 
with all means to make sure that the United States of America 
is protected.
    Let me ask you this. In your knowledge, do either of you 
know of anybody anywhere that does not think that Iran is after 
nuclear weapons?
    [No response.]
    Mr. Scott. So then the answer to this question is that 
everybody----
    Chairman Berman. Are you saying yes or no?
    Ambassador Burk. I don't know anybody who doesn't think 
that that is something they aspire to.
    Mr. Scott. Right. So that certainly includes Russia big 
time. The issue is that Russia is the only declared nation that 
has been the ultimate sponsor of Iran's nuclear program. This 
is especially true in the 14 years that they have been working 
with the Bushehr plant.
    Wouldn't it be a good starting point to hold Russia to a 
tight area of responsibility to make sure that the spent 
nuclear fuel from that plant that could be used to move toward 
the development of a weapon is disposed of?
    The other point that I wanted to ask is given the fact that 
we know this--that, as you said, you know of no one that does 
not believe they are after a weapon--and we are saying the 
world cannot be secured if they get it and runs directly 
counter to our whole efforts of nonproliferation that this 
ought to merit a move to dramatically move to boycott on an 
international basis the importation of refined gasoline into 
this country.
    I don't care what kind of sanctions we put on for 
everything else. That is the one issue in my estimation. That 
is the last resort on a peaceful means of stopping them from 
acquiring this nuclear weapon because if they do that is going 
to throw the entire balance of that region and the world into a 
very precarious position.
    What is the hesitancy here of moving with that kind of 
effort and sanction on that entity--they produce all this, but 
they have to bring this refined gasoline in--and especially 
given the internal dissent that is going on in Iran?
    That would be a very significant way of capitalizing it 
because I am convinced that the only way that we are going to 
solve this problem is by causing an emergence of revolution as 
maybe we say within the country of Iran to recapture its sanity 
from these extremists that are controlling the country.
    So I guess what I am trying to say is that since you say 
everybody knows this is happening--3 seconds maybe?
    Chairman Berman. Well, I think the time of the gentleman 
has expired. I think I would just intervene here to point out 
on the issue of Iran and Iran sanctions, I take it that is not 
Ambassador Burk's portfolio. Undersecretary Burns, several 
officials in the NFC, are sort of leading that particular 
effort.
    Ambassador Burk. That is correct, but I am happy to--we 
will take back these comments and these questions as well. I am 
sorry. We will make sure to pass this back to let the 
appropriate people who are seized with this on a day to day 
basis know of the concerns and the proposals, and I will 
faithfully report that back.
    Mr. Scott. I didn't know my time went so fast. I am sorry. 
I just wanted to make the point.
    Chairman Berman. The gentleman from California, Mr. 
Rohrabacher, is recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. This is 
of course a very complex and very significant hearing today, 
and I appreciate your leadership, Mr. Chairman, and I would 
pledge to work together with you to make sure that we are all 
doing the right thing.
    Let me note that maintaining a large nuclear arsenal and 
the delivery systems for those weapons, that is a very 
expensive proposition and it consumes limited resources which 
prevents us then from actually investing our limited resources 
in other weapons that we need and we expect to be used.
    We would hope that nuclear weapons would never be used, and 
it costs a certain amount of money to maintain those weapons, 
and if we spend that money that way we don't have the money for 
the weapons that our troops depend on every day, so it behooves 
all of us to take this very seriously as to what level of 
nuclear weapons is sufficient for the security of the United 
States.
    In the past, large arsenals of nuclear weapons were totally 
necessary because during the Cold War we depended on mutually 
assured destruction, which means we needed a level of nuclear 
weapons not only to strike at an enemy, but to have a 
counterstrike after we had already absorbed a nuclear attack.
    Well, the Cold War is over, the Soviet Union no longer 
exists, and the need for a counterattack of that magnitude is 
no longer necessary. Thus, we can reduce our nuclear arsenals 
on both sides further down and still have security, and if we 
don't we are wasting money that should go to other national 
security interests.
    So it will take a lot of work on our part to make sure we 
are very serious about the issue, but what makes this issue not 
serious and dangerous is this talk of nuclear disarmament. What 
is that all about?
    I mean, we can reduce the number of nuclear weapons 
clearly, but for us to even hint that we are willing to some 
day go to zero nuclear weapons and as if that is going to 
impress leaders in North Korea and Iran and other rogue states 
that this is the reason that we have to reaffirm that our goal 
is total disarmament.
    Chairman Berman. Will the gentleman yield?
    Mr. Rohrabacher. As long as I get it off my time, sure.
    Chairman Berman. Well, it won't be. It will be on your 
time, so maybe you don't want to yield.
    Mr. Rohrabacher. Yes, Mr. Chairman.
    Chairman Berman. But it will just be 10 seconds.
    Mr. Rohrabacher. Go for it.
    Chairman Berman. Number one, in the second panel it will be 
drawn out more clearly. There is a belief that the 
nonproliferation and disarmament goals are connected, but, 
secondly, there is this matter of this treaty that President 
Nixon led us into that we signed where we committed to that as 
the goal.
    Mr. Rohrabacher. Well, I would suggest reaffirming that 
that is a legitimate goal and is dangerous to our national 
security. It does not convince rogue nations whatsoever that 
they shouldn't develop their nuclear weapons. In fact, it 
encourages them to do so.
    Just as I would say the talk that we have heard recently 
from the administration that Mr. Smith brought up that calls 
into question our willingness to use a nuclear weapon and 
leaves that very vague is actually dangerous to our national 
security as well.
    Now, if we are going to take care of the security interests 
of the United States of America, we have to do it seriously. I 
will have to say that this talk from the administration about 
disarmament and this talk about being very vague about when we 
would use nuclear weapons is damaging rather than helping our 
national security.
    One last note. Mr. Sherman was correct when he said that a 
nuclear weapon could well be smuggled into another country. 
Yes, that is true. That does not negate, however, missile 
defense. At a time when we are lowering our arsenals, our 
nuclear arsenals, missile defense becomes even more important 
because countries like North Korea or Iran may well at a time 
of crisis or a time of chaos put their nuclear weapon on a 
missile and could actually use it in a time of crisis rather 
than smuggling it into Israel or smuggling it into another 
country.
    Yes. We need to take care of the smuggling potential by 
having a very aggressive intelligence community and a well 
funded intelligence effort that will permit us to uncover those 
kinds of plots, but, Mr. Chairman, we also need a missile 
defense system that will protect us in time of crisis from 
these type of monstrous rogue states that could launch a 
missile toward Israel or toward the United States or any other 
country. Thank you.
    Chairman Berman. The gentlelady from California, Ms. 
Woolsey, is recognized for 5 minutes.
    Ms. Woolsey. Thank you, Mr. Chairman. Like almost probably 
every member of this committee, I strongly oppose a nuclear 
Iran. Nuclear weapons I believe can only serve to destabilize 
this already delicate balance of the Middle East. So knowing 
that, we have to hold all nations in the region to 
nonproliferation standards.
    So my question is how does Israel's possession of nuclear 
weapons affect the security of the region and the stability of 
nonproliferation regime, and how does this affect our ability 
to negotiate for a stronger NPT presence in the Middle East? I 
mean, probably both of you I would like to have answer that.
    Ambassador Burk. That is an important question. I think, 
first of all, Israel has always said it won't be the first to 
introduce nuclear weapons into the Middle East, and I just have 
to make that point.
    But there has not been the concern in the Middle East about 
this issue for decades until Iran's program came out into the 
open, and you could argue that that is what has gotten the 
countries in the region very, very anxious is Iran's 
activities, which have now been discussed in great detail at 
the IAEA.
    And clearly there is a point we hear all the time about 
universal adherence to the NPT and all parties need to be in 
the treaty. There are three that have never joined--Israel, 
India and Pakistan.
    Clearly, universality in the Middle East has been severely 
complicated by lack of compliance by the states who are in the 
region, and I think the compliance issue now has made 
universality a much more far distant goal I would say, and that 
is something we continue to emphasize here.
    Ambassador Jenkins. Thank you. Ambassador Burk really 
pretty much talked to the issue of the NPT, which is her 
expertise, but I guess in relation to the work that I do, which 
is security of nuclear material, what I can say in that respect 
is that, as you know, Israel did attend the Nuclear Security 
Summit and they agreed with the other participants on the 
intent to work domestically and work internationally to ensure 
that nuclear material are secure.
    They were at the summit, and they expressed a concern that 
was expressed by the other countries about the global issue of 
securing these nuclear weapons. I mean nuclear material. So in 
terms of my area and working on security it is important, the 
materials, and ensuring they do not get into the hands of 
nonstate actors and terrorists. They were very much on board 
with that, and that is what I can add about that issue.
    Ms. Woolsey. Okay. Thank you. In 2008, Congress approved a 
nuclear deal with India, and I was part of the Minority 
opinion--we were in the Minority as Democrats at that time--and 
opposed this deal because I thought it clearly violated the 
intent, if not the letter of the law, of the NPT.
    So I just question how can the United States stand up to 
other nations demanding that they comply with the NPT after we 
did an end run around it, and what can we do to gain back our 
credibility?
    Ambassador Jenkins. Well, on the matter of the United 
States-India deal I wasn't involved in nonproliferation at the 
time it was negotiated, but I do understand that it was 
negotiated very, very carefully with a very close eye to 
ensuring that it did not in any way violate U.S. obligations 
under the NPT, so that is the fact as I understand it.
    I think the way we explain this issue is that it was an 
attempt to recognize a fact here, expand safeguards on a 
program, on the India nuclear program, and in fact bring them 
closer to the nonproliferation regime than they had been 
before, and that was the goal and I think that is what we are 
achieving through that arrangement.
    Ms. Woolsey. But isn't it true that when you have to 
explain what you have done you kind of undermine what you are 
doing in the first place? I mean, explaining why we went end 
run around something that we thought was important.
    Ambassador Jenkins. That is how I explain it when I am 
asked about it.
    Ms. Woolsey. All right. Thank you very much.
    Chairman Berman. The time of the gentlelady has expired. 
The gentleman from California, Mr. Royce, is recognized for 5 
minutes.
    Mr. Royce. Yes. Thank you, Mr. Chairman. I think just to 
begin with the basic premise here, I think much of the 
conversation--I think a lot of the administration's thinking--
is premised on the assumption that other countries are 
positively impressed by our reducing our weaponry. That is 
probably true in many cases. Canada probably is.
    But the reality is that too many parts of the world have a 
different set of premises, and in those parts of the world what 
the administration sees as leadership and what a lot of people 
applaud as their leadership is read as a sign of weakness.
    I would like to ask Ambassador Jenkins a question. The 
administration points to China's attendance at last week's 
Nuclear Security Summit as a diplomatic coup. How so? Because 
China ``announced cooperation on a Nuclear Security Center of 
Excellence.'' Now, I wasn't sure what that was. I see if you 
Google it that according to the Chinese party paper Hu Jintao 
is considering this center in order to play a bigger role in 
regional nuclear security.
    Now, I don't think I have to remind the members here that 
have been here while we have watched China proliferate, while 
we watched China send the ring magnets to Pakistan, while we 
watched China help Pakistan develop its nuclear arsenal, while 
we watched China play interference for North Korea, something 
that they could have shut down, but did not, but instead 
decided to run interference.
    I have been in meetings in Beijing where this has been 
discussed ad nauseam. It is just phenomenal. I mean, the 
members here don't have to be reminded that China has assisted 
Iran's missile program, and continues to do so, by the way. So 
is this Center of Excellence all we have to show for our 
diplomacy with China?
    Ambassador Jenkins. Thank you for your question. The Center 
of Excellence idea is one that is still in development. It is 
one that has been launched where DOE and DOD are working right 
now with developing what the Center of Excellence will be doing 
specifically, but it will be working in the area of nuclear 
security. What is positive about it is it is going to be a 
regional center and so it will work with countries in the 
region and focusing on the importance of nuclear security.
    What is positive again is not only that we are able to--it 
took a lot of diplomacy to actually work with China to begin 
this center. And what we are trying to do is have countries who 
attended the summit be regional players and be regional leaders 
on the issue of nuclear security so that after the summit and 
years after even the second summit these countries can continue 
to promote the goal of ensuring that nuclear material remains 
secure and not vulnerable to nonstate actors.
    So in a very real sense this is an important step in 
ensuring not only that we have something that follows the 
summit that can actually take it forward and be real after 1\1/
2\ days of meetings or 2 days of meetings, but that we have an 
important part, like China, that is actually engaged in this 
issue and that we stay engaged with China in the next few years 
as we develop this center and for many years after that.
    Mr. Royce. Well, we are engaged with China, but, as I said 
in my opening statement, the only thing worse than not getting 
cooperation from China and others is to think you are getting 
it when you are not.
    I am looking through your list of promises made at the 
Nuclear Security Summit, and I don't see any mention of 
countries contributing or bolstering their proliferation 
security initiative contribution, and I was just going to ask. 
Am I mistaken on that? Was anyone asked?
    Was anybody asked to financially bolster their contribution 
or to step up to the plate on the Proliferation Security 
Initiative, for instance, or any of the programs, the hard 
programs that we try to use to interdict weaponry and 
proliferation?
    Ambassador Jenkins. Thank you.
    Mr. Royce. I am glad that Finland invited some 
international bureaucrats from the IAEA to Helsinki. As I go 
down the list I see they have done that, but again to the point 
at hand. I am just looking for the success where somebody was 
asked to step up to the plate, put money in to help on this. Go 
ahead.
    Ambassador Jenkins. Thank you.
    Chairman Berman. I am sorry, but the time of the gentleman 
has expired. You will have to keep looking. I am sorry. The 
gentlelady from Texas, Ms. Sheila Jackson Lee, is recognized 
for 5 minutes.
    Ms. Jackson Lee. Thank you for this hearing, and thank you 
for the witnesses that are present. We are always grateful for 
our chairman and our ranking member for being timely.
    Across the street is a hearing that I am also engaged in in 
Homeland Security that involves a report by former Senator 
Graham and former Senator Talent--you may be aware of that--
that speaks about the risks in terms of nuclear utilization, so 
I would like to just simply start by saying when you have a 
meeting that was held last week that focuses on the crisis of 
nuclear materials getting into hands of terrorists, I think 
that is an important step.
    I think it is an important step when you sign a new arms 
treaty with Russia, who has for a long period of time obviously 
through the Cold War with the Soviet Union, been our nemesis as 
it relates to these issues.
    But there is no doubt that we should be cognizant that 
nuclear powers such as Russia, China and France have not moved 
behind the issue of global disarmament. But who is to say that 
we are not supposed to be the leader, and I would hope the 
Senate will approve the new Strategic Arms Treaty with Russia 
because I believe it is important, and I would like to be able 
to assume that we made sufficient progress even in spite of 
Iran and North Korea last week.
    So let me pose questions regarding the meeting that I 
believe is forthcoming, the Non-Proliferation Treaty, which is 
credited with keeping the lid on the spread of nuclear weapons 
for decades and what we perceive our goals are and are we going 
to achieve our goals. I would hope as well, just for the 
record, that we look at this in a bipartisan manner.
    There is no one with common sense that does not view Iran, 
for example, as a threat to the world, not just to the United 
States, and I cannot imagine that the administration is not 
doing everything it can to assess how we address the question 
of Iran, but we must do that provocatively, but also with 
diplomacy, so that in addition to what we do the United Nations 
can also be part of it.
    Ambassador Burk, if you would, tell me what progress you 
think you made. I think you are the expert on last week. Okay. 
Tell me what progress you expect to make on the conference next 
week, because you are on the NPT. Yes.
    Ambassador Burk. Next week?
    Ms. Jackson Lee. Next week, yes. I got it. I know. So I 
just decided to stay with Ambassador Burk.
    Ambassador Burk. Yes.
    Ms. Jackson Lee. My time is rolling because I did want to 
put comments on the record, but if you could quickly answer 
that, please?
    Ambassador Burk. All right. What progress we are going to 
make next week?
    Ms. Jackson Lee. Yes. Your goals.
    Ambassador Burk. Well, our goals are to see if we can't get 
a strong reaffirmation of support for the treaty by as many 
parties as possible, the vast majority we would hope, and we 
are looking to have a serious and constructive review of all 
the issues on the disarmament piece and operation piece and the 
peaceful use of----
    Ms. Jackson Lee. Are you going to seek some consensus on 
Iran and North Korea?
    Ambassador Burk. I think what we are seeking is consensus 
on the importance of compliance and the need to deal seriously 
with noncompliance. I think the difficulty in getting consensus 
on Iran per se is that this is a consensus body. The meeting 
rule operates by consensus, and Iran is in the room.
    If we can get Iran to agree to language like that we will 
have consensus, but otherwise I think we will have to find some 
other----
    Ms. Jackson Lee. Well, then I will take the word consensus 
away and just have an instruction and say I think we should be 
enormously forceful, detailed and not hesitant in calling on 
our other allies in the room to focus on a strong statement and 
strong action.
    I am going to move to Ambassador Jenkins on last week's, 
which I think was an enormous step, as a member of the Homeland 
Security Committee, in protecting loose materials. Can you just 
give me your thought on what we got done last week?
    Ambassador Jenkins. Very briefly. Thank you for the 
question. Very briefly, I think one of the most important 
things that we were able to achieve was to get an agreement by 
the participants, all 47 nations and the three IOs, 
international organizations, on the threat and the fact that 
there is a threat of multiple nuclear materials being taken or 
illicitly taken by nonstate actors.
    Ms. Jackson Lee. Do you think any area is more vulnerable 
than the next, such as the Africa and Pakistan border or 
Israel, Palestine, on these potential transfers of loose 
materials?
    Ambassador Jenkins. I think the vulnerability areas differ 
because of the type of situations.
    Ms. Jackson Lee. Do you have any in mind that have been 
made public?
    Ambassador Jenkins. Well, I mean, I think if you look, for 
example, at the African region the issues there are going to be 
border issues. They are going to be coastlines and trying to 
deal with export controls and making sure that the weapons are 
not elicited through those kind of border areas.
    If you look at other areas that don't have that, you are 
more concerned about actually the facilities themselves.
    Chairman Berman. The time of the gentlelady has expired.
    Ms. Jackson Lee. I yield back. Thank you, Mr. Chairman.
    Chairman Berman. The gentleman from Virginia. No. I am 
sorry. The gentleman from Indiana, Mr. Burton, is recognized 
for 5 minutes.
    Mr. Burton. You know, unless we have an embargo that blocks 
Iran completely and puts so much pressure on the regime things 
aren't going to change. We have been talking about this for 5 
or 6 years.
    I have been in Congress 27 years. I am going to tell you. 
We just talk and talk and talk and nothing happens, and they 
just thumb their nose at us and keep going on. It is absolutely 
insane for the United States to rule out any kind of a weapon 
in the event we go to war. War is conducted to protect America 
and to win. That is it.
    You know, one of the things that is very interesting is 
when the first Gulf War took place there was a great deal of 
concern that Saddam Hussein was going to use biological or 
chemical weapons because he did on the Kurds. He killed tens of 
thousands of Kurds using chemical weapons.
    I was on a television show and they asked me about tactical 
enhanced nuclear weapons, and I said we shouldn't rule those 
out. I was criticized about it, and about 2 weeks later 
President Bush I said we are not ruling anything in or out. 
They said does that include tactical nukes, and he said yes.
    As a result, there was no chemical or biological weapons 
used, and we won the war in a short period of time. Now, those 
things have very little radioactive fallout so there wouldn't 
have been a holocaust like you saw at Hiroshima or Nagasaki, 
but nevertheless it let Saddam Hussein know there was a 
terrible price to pay.
    If you want to go to the major nuclear weapons, if we had 
invaded Japan in World War II, and I don't know if you know 
much about history. The estimate was we would have lost 500,000 
Americans. Because we used the bombs at Hiroshima and Nagasaki 
we stopped the war and we saved 500,000 American lives. It was 
a horrible thing to do, but war is hell anyhow.
    For Secretary Gates, for whom I have a great deal of 
respect, to say we are going to rule out nuclear weapons, that 
is crazy. You don't know what Iran is going to do. They are 
developing nuclear weapons right now and a delivery system. 
What if they use them? You know you use whatever you have to. 
And what if they don't use them? Let us just say they start 
using biological weapons or some other enemy does. We have to 
have the ability to retaliate in any way possible to protect 
America.
    The number one responsibility of the Congress of the United 
States and the administration is to protect this country 
against enemies, both domestic and foreign, and that means 
doing whatever is necessary to protect this country. To allow 
somebody to have immunity as far as nuclear weapons are 
concerned really bothers me.
    Now, I have a couple other things I would like to just say 
here. Iran has been thumbing its nose at the rest of the world. 
They are not stopping their nuclear program. All these meetings 
aren't going to cut it. The only thing that is going to stop 
them is to put so much pressure on them as far as energy is 
concerned, not getting any gasoline or whatever it takes to 
kill that economy and force the people to force them out of 
office. That is the only thing that is going to work because 
they are going to go ahead.
    Their number one objective is to destroy the state of 
Israel. I haven't heard that mentioned here at all today, but 
we have BBnet and Yahoo coming into this country, and it is 
virtually ignored by the President. I think that is terrible. 
They are our strongest ally in the Middle East, and Iran is 
going about its merry way developing nuclear capability and 
their number one objective, stated objective, is to destroy 
Israel. And so we need to be saying very clearly we are going 
to support Israel in any way possible and we are going to do 
everything we can to stop Iran from developing nuclear weapons.
    Let me just say a couple of other things here. Iran is a 
terrorist state. They are a terrorist state. The President has 
indicated for peaceful purposes we would allow Iran to have 
nuclear material. They don't need it. Iran has got plenty of 
energy right there in oil, and since they are a terrorist state 
we ought to do everything we can do to stop them from getting 
any nuclear material for any purpose that might be able to be 
converted into a nuclear weapon.
    Now, the other thing I want to talk to you about real 
quickly is I have talked to a lot of the Gulf States. I am the 
senior Republican on the Middle East Subcommittee, and I have 
talked to a lot of the people there and they say two things 
will happen if there are nuclear weapons developed in Iran.
    Number one, all the states around them will be concerned 
and they will be intimidated and they will start moving toward 
Iran because they don't want to be at odds with a nuclear power 
in their neighborhood. Second, a lot of them are going to want 
nuclear weapons.
    These are things that we ought to be concerned about as 
Members of Congress and we ought to be talking about them and 
we ought to put the hammer to Iran in every way possible to 
stop nuclear technology from evolving into nuclear weapons.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Virginia, Mr. Connolly?
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I thank our panelists. I would ask 
unanimous consent that my full statement be entered into the 
record.
    Chairman Berman. Without objection.
    Mr. Connolly. Let me just say I think the whole question of 
nuclear proliferation and the proliferation of radiological 
material getting into the hands of the wrong parties is perhaps 
the single most troubling challenge we face in U.S. foreign 
policy, and that is why I think both the summit the President 
held and this hearing are terribly important as we explore the 
best ways to protect our country and our allies.
    Speaking of which, let me ask each of the Ambassadors. Why 
did this summit not cover radiological sources, which some 
European officials believe pose the largest terrorist threat?
    Ambassador Jenkins. Thank you. Yes, that question came up 
often during our discussions, and the majority of states 
realized--we made it clear from the very beginning--that we 
recognize and understand that radiological sources are an 
important issue, a very important issue, but for the purposes 
of the summit we felt it was necessary to really address what 
President Obama has already said was the largest threat, which 
is the nuclear materials getting into the hands of nonstate 
actors and terrorists, which is plutonium and highly enriched 
uranium.
    So that was the focus of what we really wanted to have the 
summit really address because that is a big task in itself is 
trying to secure all the nuclear material. However, the 
radiological is important. We mentioned it both in a 
communique, and the work plan has issues that could be 
addressed.
    We also stated at our meetings prior to the summit with the 
Sherpas that countries are more than capable of having summits 
that address the radiological issue. This was addressing 
nuclear material, but radiological sources are something that 
can be another source, another potential for another summit, so 
we left that open.
    And also just one last thing. The U.S. Department of 
Energy, for example, still does work on radiological, securing 
those materials for----
    Mr. Connolly. Right. Because when you look at source 
points, there are so many more source points in terms of 
radiological material. You are quite right. We have reason to 
be concerned about fissionable material and stockpiles thereof, 
spent or unspent, but radiological material in terms of the use 
for a dirty bomb can keep you up at night in terms of 
nightmares.
    In the 2010 edition of Securing the Bomb, analyst Matthew 
Bunn rates Pakistan and Russia as countries at the highest risk 
of theft of nuclear materials. Would you agree, Ambassador Burk 
or Ambassador Jenkins?
    Ambassador Burk. I would like to turn that to Ambassador 
Jenkins because I think that may have been----
    Mr. Connolly. Ambassador Jenkins?
    Ambassador Jenkins. I would actually like to refrain from 
actually naming any particular countries as the most 
vulnerable. I would just like to just focus on the fact that 
this is a global problem, and we really want all countries to 
really play a role in this.
    I think that is what we were really trying to promote at 
the summit. It is a global issue, and all countries need to 
work on it together and we need to assist each other in 
assuring that everyone has what they need, the resources or 
whatever, in order to secure all of the nuclear material.
    At the summit we refrained from and all during the process 
we refrained from pointing fingers at any one country and 
saying this country is more vulnerable than another because it 
really is a global problem, and that is what we think the 
attention should be focused on.
    Mr. Connolly. A diplomatic answer if there ever was one. 
Will there or should there be anything in the RevCon final 
document on the issue of stopping the spread of enrichment and 
reprocessing technology in facilities?
    Ambassador Burk. I will take that one. I don't know whether 
we are going to have a RevCon final document or not because 
again it is consensus, but we think we will be prepared 
certainly to discuss and we know other countries will discuss 
as well the need to constrain the spread of enrichment and 
reprocessing technologies, the sensitive technologies, and 
assure that any pursuit of enrichment of technology--I mean, we 
have a number of our allies that have enrichment and 
reprocessing technologies--is only done under the strictest 
safeguards conditions.
    Mr. Connolly. Thank you. Mr. Chairman, I am going to yield 
back my time, but I do want to add my voice to praise the Obama 
administration and President personally for showing leadership 
on this very important issue and bringing together many in the 
world community to make sure it gets addressed. I thank the 
chairman.
    Chairman Berman. The time is yielded back. The gentleman 
from Texas, Mr. McCaul, is recognized for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman. I apologize for being 
late. I was at a Homeland Security Committee hearing on this 
exact same topic.
    Chairman Berman. Did you see Sheila?
    Mr. McCaul. I did. I did. That is where she is right now, 
but she may be on her way.
    Thanks to the witnesses for being here. This is an issue 
that has been of grave concern for a long time, certainly since 
9/11. My concern has always been Pakistan, where terrorism 
meets the nuclear weapons, and how that is being safeguarded 
and what we are doing to safeguard their nuclear arsenal; Iran, 
which according to most reports is maybe a year away from 
having a nuclear weapon.
    Time is running out, and I hope we have a sanctions Act 
that passes, but I am concerned that the clock is going to run 
out. As Prime Minister Netanyahu told us that once they have 
the bomb they have it and you can't really take it back like 
when Pakistan got it. So that is a real concern.
    What I am also concerned about, though, is the nexus 
between Iran and its alliance in our own hemisphere with Hugo 
Chavez and Venezuela. So when we talk about proliferation or 
the smuggling of nuclear materials, we are obviously concerned 
not only over in that part of the world, but the connection it 
could have to this part of the world. We have a border--I am 
from the State of Texas--that is very porous, and we are very 
concerned about that kind of material crossing into the United 
States.
    So if either one of you would like to comment on those 
points and tell me what your plan is specifically to address 
that, realizing I have thrown quite a bit out at you, but I 
would like to get your response.
    Ambassador Jenkins. Just very briefly because I am not as 
familiar. I am getting more familiar now with all of the work 
that DHS is doing domestically on that, but I do know that DHS, 
and you just sat through the hearing, is very engaged in that 
issue and trying to work on the issues of that kind, the 
borders, porous borders and what can be brought into the porous 
borders into the United States.
    You make a very good point about the global nature of the 
issue and being concerned about what can happen far away, but 
even closer to us in Venezuela or wherever and so I just have 
to reiterate what I have been saying this morning already about 
the global nature of this and the fact that it really is a 
global issue that all countries must be engaged in trying to 
prevent because it really does have no borders.
    Mr. McCaul. Ambassador Burk?
    Ambassador Burk. Well, all I would say is that you have hit 
on some really important issues and some big concerns, and I 
think from my narrow focus on the NPT part of the effort 
through me is to try again globally to get as many countries to 
understand that these things are problems and do whatever they 
can regionally, globally to contribute to steps that will 
address these kinds of issues.
    I think that is the idea. We have to all be on the same 
page, and there has to be broad agreement on what the problems 
are.
    Mr. McCaul. And my understanding is that Iran is a 
signatory?
    Ambassador Burk. They are a party and they will be in New 
York----
    Mr. McCaul. Okay.
    Ambassador Burk [continuing]. Yes, at the review 
conference.
    Mr. McCaul. Okay. That will be a very interesting 
discussion. Tell me about your efforts with China and Russia to 
get them on board with sanctions.
    Ambassador Burk. I can't give you any specific details, 
Congressman, because I am not personally involved in that. I 
know that we are working with the P5-plus-1--I keep getting the 
sixth party in; I am trying to get all these groups--and that 
we are working very closely with Russia and China, and any 
Security Council action would be contingent upon their support.
    Mr. McCaul. I agree. We are going to hopefully pass this in 
the Congress that applies to the United States, but the U.N. is 
going to have to come forward with a sanctions bill that would 
have teeth, and I am concerned to get Russia and China on 
board.
    It probably won't have that necessary enforcement, and 
therefore we are going to be faced with a nuclear Iran, which 
can be a very I think dangerous scenario. They are a signatory, 
but under the President's policy he will not use nuclear force 
if someone is a signatory to the NPT, but they also have to be 
in compliance with that. Is that correct?
    Ambassador Burk. No. It was very clearly stated that what 
we call the negative security assurance was only granted to 
countries who were in compliance.
    Mr. McCaul. In compliance.
    Ambassador Burk. And I think Secretary Gates said quite 
explicitly again, as I watched him on the roll out, that the 
countries who were not in compliance--Iran and North Korea--
this assurance would not apply to them.
    Mr. McCaul. Right.
    Ambassador Burk. So I think it was quite clear.
    Mr. McCaul. I think it is good to make that very clear that 
that policy would not affect what we do with Iran. With that, I 
think my time has expired.
    Chairman Berman. Your time is expired. I won't ask whether 
he included Syria as a noncompliant party. I am not going to 
ask that.
    I want to thank both of you very much. We appreciate it. We 
have a second panel that is going to follow on. Good luck next 
week. Good luck with the follow on to last week.
    Ambassador Jenkins. Thank you.
    Chairman Berman. While the panels are coming up, Mr. 
Rohrabacher, I just wanted to read one paragraph from what 
George Shultz, Henry Kissinger and a few other guys wrote: 
``Ronald Reagan called for the abolishment of all nuclear 
weapons, which he considered to be''--all nuclear weapons is 
his quote--``totally irrational, totally inhumane, good for 
nothing but killing, possibly destructive of life on earth and 
civilization.''
    Mr. Rohrabacher. Mr. Chairman, if I could, just one retort 
to that is that would be the one thing I disagreed with 
President Reagan on.
    Mr. Burton. Would the gentleman yield real quickly while we 
are having the other panel come up?
    Chairman Berman. You didn't work for Reagan.
    Mr. Burton. You know, if every person in the world, every 
country, did away with nuclear weapons that would be one thing, 
but you don't disarm yourself if there is any possibility that 
you are going to be retaliated against and be attacked.
    Chairman Berman. As our panelists are sitting down, I will 
just say there is nothing I know in anything in that Nuclear 
Posture Review or what President Obama said at Prague that 
would indicate we have intention--any intention--of disarming 
ourselves of nuclear weapons without knowing that all other 
nuclear weapons have been disarmed and that a system is in 
place to ensure that is true.
    Mr. Burton. If the gentleman would yield one more time real 
quickly? And that is this. Let us say a country has complied, 
saying it will never use nuclear weapons and they have 
disarmed, but they use chemical and biological weapons to a 
large degree and blow up Boston and kill hundreds of thousands 
of people. We don't retaliate with nuclear weapons?
    Chairman Berman. That is why I was addressing Mr. 
Rohrabacher and not you.
    Mr. Connolly. Couldn't the gentleman have picked a city in 
Indiana?
    Chairman Berman. We are very pleased to have our next 
panel, and I will now introduce them. David Albright is 
president of the Institute for Science and International 
Security in Washington, DC. In case you want to know, if you 
remember that attack on the Syrian reactor and we saw these 
vivid pictures in the paper before, after and then this plowed 
field like it was going to the bread basket of the world? Those 
were his pictures.
    He regularly publishes and conducts scientific research, is 
frequently mentioned in major print and broadcast outlets and 
has written numerous assessments on secret nuclear weapons 
programs throughout the world. His most recent book is Peddling 
Peril: How the Secret Nuclear Trade Arms America's Enemies.
    Kenneth Luongo is president of the Partnership for Global 
Security. Mr. Luongo previously served as senior advisor to the 
Secretary of Energy for Nonproliferation Policy, director of 
the Office of Arms Control and Nonproliferation at the U.S. 
Department of Energy and as a staffer for the House Armed 
Services Committee.
    He also serves on the Steering Committee for the Fissile 
Materials Working Group, a coalition of more than 40 leading 
experts and NGOs in nuclear security and nonproliferation, 
which held its own nuclear security summit last week. That was 
not the one in Tehran. No. Okay.
    Christopher Ford is the director of the Center for 
Technology and Global Security and Senior Fellow at the Hudson 
Institute. Mr. Ford served, until September 2008, as United 
States special representative for nuclear nonproliferation and 
prior to that as principal deputy assistant secretary of state 
responsible for arms control, nonproliferation and disarmament 
verification and compliance policy.
    Prior to joining the Bush administration, Dr. Ford served 
as minority counsel and then general counsel to the U.S. Select 
Committee on Intelligence. He is also a lieutenant commander in 
the U.S. Navy Reserve.
    Mr. Albright, why don't you start off?

   STATEMENT OF MR. DAVID ALBRIGHT, PRESIDENT, INSTITUTE FOR 
               SCIENCE AND INTERNATIONAL SECURITY

    Mr. Albright. Mr. Chairman Berman and Ranking Member 
Burton, thank you very much for holding this hearing. I think 
we all agree just how important the Non-Proliferation Treaty 
Review Conference can be and kind of a road or pathway to 
strengthening the nonproliferation regime. I think it has been 
clear from the discussion so far we recognize just how profound 
the challenges are to the Non-Proliferation Treaty today. 
Iran's and North Korea's nuclear programs, if not reversed, 
could severely damage this treaty.
    The treaty's effectiveness is also haunted by Syria's 
secret construction of a nuclear reactor and its bombing by 
Israel in September 2007. Likewise, the A.Q. Khan network's 
proliferation to Iran, Libya and North Korea highlighted the 
ease with which dangerous nuclear technology spreads largely 
undetected. Currently Iranian and North Korean smuggling 
networks actively seek, often illegally, nuclear dual use goods 
for their nuclear programs. Their smuggling operations indicate 
an intended or actual violation of the Non-Proliferation Treaty 
or U.N. Security Council resolutions.
    In addition to these proliferation concerns, many non-
nuclear weapon states are frustrated by the lack of progress on 
key nuclear disarmament steps that are intrinsic to the NPT. It 
is the only treaty where the United States has committed itself 
to achieving nuclear disarmament, but I think it is clear that 
that is a long road, but nonetheless it remains a goal of that 
treaty.
    However, the commitment of the nuclear weapons states to 
disarmament is not seen by the non-nuclear weapons states 
despite President Obama's much lauded 2009 speech in Prague and 
agreement on a New START treaty. Nonetheless, many countries 
have a strong interest in the success of the Non-Proliferation 
Treaty Review Conference, and that success, I think as 
Ambassador Burk noted, is by no means certain and will 
typically be judged whether there is a final document, after 
essentially what will be 4 weeks of negotiation.
    As she noted, consensus makes it a very difficult problem. 
With almost 200 nations there, which include Iran, Cuba, 
Venezuela, and well known members of the NAM or the Non-Aligned 
Movement, any consensus is difficult to reach. However, it is 
important to remember that this conference is just one step in 
the process of strengthening the nonproliferation regime. If it 
succeeds, and there is a document, many efforts will gain 
momentum, and the treaty will be further legitimized.
    If it doesn't succeed and there is no document, these same 
efforts that are going to be discussed at the conference will 
continue. The United States and other states will certainly 
have to work harder, but in the end the ways to strengthen the 
nonproliferation pillar of the treaty will be achieved through 
a variety of unilateral, bilateral and multilateral 
initiatives, many of which are quite far along.
    Despite these difficulties, I think the United States is 
right to prioritize the strengthening of the nonproliferation 
pillar of the NPT. Clearly it is going to be a major challenge. 
I would say disarmament is an easier challenge in the present 
climate, but the real work has to concern the nonproliferation 
pillar.
    Ambassador Burk pointed out that making withdrawal from the 
treaty more costly has to be a primary goal. North Korea 
essentially withdrew from the treaty, not in compliance with 
its obligations, and essentially got away with it. The treaty 
has no mechanism to deal with that. We unfortunately expect 
Iran will try the same thing.
    IAEA safeguards need strengthening. Syria avoided signing 
the Additional Protocol in order to build its secret reactor. 
Libya, to protect its secret effort with the A.Q. Khan network, 
did not sign the Additional Protocol. Iran withdrew from 
implementing the Additional Protocol or acting as if it was in 
force.
    For too long we have not demanded that it be a condition of 
any nuclear assistance or supply. I think it is clear it should 
be a condition in the Nuclear Suppliers Group that the supply 
of nuclear items require it. But it needs to be broader than 
that. It is how countries cheat. They simply refuse to sign the 
Additional Protocol or bring it into force and then are 
relatively free to pursue secret programs.
    Another item for the conference, which is even less 
popular, is that the conference should explore agreements to 
thwart illicit nuclear trade. It should recognize that the 
danger posed by illicit nuclear trade is a fundamental threat 
to the NPT because unfortunately that is the way countries are 
getting nuclear weapons and that has been going on for several 
decades. They are not building them on their own. They are 
depending in essence on the profit motive and secret help from 
irresponsible countries or people.
    I mentioned the disarmament pillar of the treaty. Certainly 
the United States is going to have to be creative in finding a 
compromise at the conference on the obligations of the nuclear 
weapons states to meet their Article VI commitments, but, as I 
said, I think the prospects for achieving such a compromise 
appear better today because of President Obama's activities.
    I would also say that the United States should elevate the 
importance of this treaty. As far as I have heard, President 
Obama does not plan to visit or to address this conference. I 
would say that I think the chances of improving success could 
be elevated if he did attend. He can really work the crowd in a 
sense to try to build a better consensus for the United States.
    He should also be ready to call other leaders. Much of the 
negotiations happen behind the scenes. There are a lot of land 
mines in this conference, and a lot of that can be addressed by 
calling on other leaders, many of whom he met at the Nuclear 
Security Summit, to convince them of the need to make strong 
commitments. So I think high level participation would reflect 
also continued U.S. leadership of the nuclear disarmament and 
nonproliferation agenda.
    And I think we recognize--we, the American public--that the 
Obama administration wants to stop nuclear proliferation, 
reduce the risk posed by nuclear weapons in the hands of states 
and terrorists and find ways to eventually eliminate all 
nuclear weapons, which I would say is an important goal. 
Nuclear weapons in essence, if used, kill in many cases what 
are envisioned tens or hundreds of thousands of people, 
innocent people, and therefore the use of nuclear weapons 
should be avoided at all costs.
    I think the NPT Review Conference, while not the most 
important initiative of the Obama administration, is certainly 
an important opportunity to further all these goals, but 
succeeding in this conference will require more from the United 
States. Thank you.
    [The prepared statement of Mr. Albright follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Berman. And Mr. Luongo?
    Mr. Luongo. Thank you, Mr. Chairman.
    Chairman Berman. Your entire statement will be in the 
record.
    Mr. Luongo. Okay. Thanks very much.

STATEMENT OF MR. KENNETH N. LUONGO, PRESIDENT, PARTNERSHIP FOR 
                        GLOBAL SECURITY

    Mr. Luongo. Thank you for the opportunity to testify before 
your committee today. I think this is a very important hearing. 
It is extremely timely. I am going to focus on the Nuclear 
Security Summit and its results and where do we go from here. I 
thank the chairman very much for mentioning our Fissile 
Materials Working Group summit last week. It was very 
successful. We had over 200 international and domestic experts. 
It was quite useful.
    I consider the Nuclear Security Summit to be a significant 
success. It certainly was an unprecedented event. It brought 
together 47 nations and three international organizations, and 
it focused high level attention on a very important subject 
that hasn't had a lot of high level attention focused on it and 
which requires high level attention to move it forward.
    The communique in particular, as your previous witnesses 
have underscored, highlighted the consensus on the threat of 
nuclear terrorism, which had been a difficult issue to get a 
lot of countries to focus on, and it also endorsed the 
President's goal of securing all vulnerable nuclear materials 
within 4 years, so that is now an international objective, not 
just a domestic objective.
    In addition, it underscored the importance of maintaining 
effective security over all nuclear materials on whatever 
territory it may reside, encouraged the conversion of reactors 
that use highly enriched uranium fuel to use low enriched 
uranium fuel and recognized the importance of a number of 
different international conventions and agreements.
    And finally, the communique emphasized the need for 
international cooperation on this agenda and the importance of 
capacity building and responding to requests for assistance in 
order to make sure that these materials are adequately secured 
wherever they may reside.
    Accompanying the communique was a work plan. The work plan 
focused on implementing some of the commitments that were 
made--a number of the commitments that were made--inside of the 
communique, including U.N. Security Council Resolution 1540, 
emphasizing support for the Global Initiative to Combat Nuclear 
Terrorism, and the G-8 Global Partnership Against the Spread of 
Weapons and Materials of Mass Destruction.
    It underscored the need for robust independent nuclear 
regulatory capabilities in all countries, the need to prevent 
trafficking in nuclear materials and technology and the need 
for improvement in nuclear detection and forensics. It further 
highlighted the fundamental role of the nuclear industry in the 
nuclear security agenda and the importance of sharing best 
practices and the human dimension of nuclear security.
    And in this regard I would just also note that the nuclear 
industry held their own meeting the day after the nuclear 
summit to discuss how the industry could contribute to the 
nuclear security mission.
    I think that perhaps the most far-reaching objectives of 
the work plan focused on three items. One was the consolidation 
of sites where nuclear materials are stored within the borders 
of individual countries, the removal and disposal of nuclear 
materials no longer needed for operational activities and the 
conversion of HEU fuel reactors to LEU fuels. Of course, as 
others in the hearing so far have mentioned, all of these 
objectives were voluntary. There was no mandatory 
implementation.
    Then supplementing the activities of the work plan, 
individual countries, 29 in all, made commitments to improve 
nuclear security at home, and I think the major ones have been 
well reported on--the Ukraine, Canada, Russia, India and 
China--but there also were some pledges of funding--$6 million 
by the United Kingdom and $300,000 by Belgium--for the IAEA's 
Nuclear Security Fund, $100 million from Canada for security 
cooperation with Russia, and then the President called for $10 
billion more for the G-8 Global Partnership over the next 10 
years.
    In my opinion, there were three areas where the summit 
could have done more. The first was on funding. I really had 
hoped for more international funding for the nuclear security 
mission. The IAEA was focused on as an institution that needs 
to do more in this area, and their Nuclear Security Office is 
really underfunded. What they get from the actual budget of the 
IAEA is quite small and then it is supplemented with voluntary 
contributions. So funding would have been one area.
    The second is--I understand why the focus was on nuclear 
materials--but radiological materials are prevalent, estimated 
at hundred of thousands to millions around the globe, and I 
know that a number of countries raised this question. I hope 
that in the lead up to the 2012 summit in the Republic of Korea 
that the radiological issue will get a lot more attention 
because while the impact of its use is lower than the nuclear 
weapon, its probability of being used is higher.
    And finally, there were no new initiatives that were 
announced at this summit, and I think part of the reason is 
that there is international fatigue with the current set of 
activities, but when combined, I find that the current set of 
activities and programs and initiatives that we have in play 
right now are inadequate to the task of effectively preventing 
nuclear terrorism, and I have a number of suggestions for 
improvement in my testimony.
    I consider 2010 to be a particularly critical year for this 
agenda, and I really would hope that both ends of Pennsylvania 
Avenue will take this seriously. The nuclear summit, obviously 
bolstered by the START treaty and also by the Nuclear Posture 
Review, was one major opportunity. The NPT Review Conference is 
the second.
    The third is coming up in June, which is the meeting of the 
G-8 and the G-20 in Canada, and I would hope that the G-20 
nations would become more involved in these issues and that we 
could get more contributors to the G-8 Global Partnership.
    And then the final issue in 2010 that I consider to be 
quite important is the budget that the President submitted for 
this set of activities, which is roughly $3.1 billion and 
represented an increase of about $320 million for this agenda. 
I think if the Congress could act positively on that request it 
would make itself a very strong partner in the process of 
preventing nuclear terrorism.
    So where do we go from here? I mean, obviously we will have 
a lot of activity in the lead up to the next summit in 2012, 
and I have outlined a number of different post-summit 
activities and initiatives for the Congress and others to 
consider, but one thing I would just like to underscore is I 
think we have a lot of disconnected pieces of the puzzle that 
need to be packaged together in some kind of a framework that 
talks about what the danger is to mankind from nuclear 
material, recognizes all the existing conventions and 
agreements and Security Council resolutions and ad hoc 
activities that are going on and then legitimizes all of that 
in a package that countries can't pick and choose from.
    In other words, this would be the set of activities which 
is considered to be standard, a standardized checklist, if you 
will, for countries to be serious about nuclear security. I 
would add to that the inclusion of a minimum standard for 
nuclear and radiological security. A lot of people have talked 
about a "gold standard," but I think if we have a minimum 
standard that everyone could understand that would be very 
useful.
    And then I would like to see it encourage public/private 
partnerships. I think last week in addition to what the 
President accomplished really did bring the nongovernmental 
expert community and the industry into the discussion in a more 
serious way and an integrated way. And finally, I think that 
this kind of a framework agreement, while it needs to be 
universal, could be initiated by a coalition of the committed 
to begin with.
    Chairman Berman. I think we are going to have to wind up.
    Mr. Luongo. I am sorry. That is fine. I can end there.
    Chairman Berman. Okay.
    Mr. Luongo. Thank you.
    [The prepared statement of Mr. Luongo follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    Chairman Berman. Dr. Ford?

  STATEMENT OF CHRISTOPHER FORD, PH.D., DIRECTOR, CENTER FOR 
TECHNOLOGY AND GLOBAL SECURITY, SENIOR FELLOW, HUDSON INSTITUTE

    Mr. Ford. Thank you, Mr. Chairman, members of the 
committee. It is a pleasure to be here, and I thank you for the 
opportunity. I would like to ask that my longer remarks be put 
into the record if that is possible.
    Chairman Berman. They will be included in their entirety.
    Mr. Ford. Thank you, sir. I will keep my oral remarks as 
short as I can.
    The upcoming NPT Review Conference I think needs to be seen 
against the backdrop of a general failure of nonproliferation 
compliance enforcement. Without fully appreciating those 
dynamics, it is hard to see where a lot of the initiatives that 
one hears talked about in the RevCon come from.
    Simply put, the international community's response to 
present day challenges in Iran, places such as Iran and the 
DPRK, hasn't been terribly impressive. No one seems to disagree 
with that here today. Even where multilateral steps have been 
taken, they have done too little and they have come to look to 
have the desired impact on the cost/benefit calculations and 
the strategic decision making of their intended targets.
    Some in the disarmament movement have argued for years that 
a critical reason for such problems in the NPT is that we have 
not moved fast enough in getting rid of our nuclear weapons. 
The way to turn around today's crises of nonproliferation and 
noncompliance, it has been claimed, is for the U.S. to disarm 
faster, and if we do so the rest of the world will heave a 
great sigh of relief and finally rally to the flag of 
nonproliferation in ways that they have been reluctant to do 
hitherto.
    I have been very skeptical of this credibility thesis, but 
it is not, and I should emphasize this. It is not because I 
think that nonproliferation and disarmament are entirely 
unconnected. Indeed, in my view the coherence of the 
disarmament enterprise really requires some kind of linkage to 
nonproliferation insofar as I think that nuclear weapons 
elimination by today's possessors would make no sense as a 
policy choice if they could not be assured that the 
international community could keep newcomers out of that line 
of work.
    With regard to the RevCon though, I think it is significant 
to note that the Obama administration seems to believe that 
there is a further linkage as well, a linkage in the other 
direction between disarmament on the one hand and the 
possibility of nonproliferation on the other. This is the 
linkage of what I call the credibility thesis, and it presumes 
a causal connection between movement on disarmament and 
nonproliferation success in the diplomatic arena
    One window into the credibility of this credibility thesis 
as it were will I think come with this RevCon and we will be 
able to see a little bit the degree to which this theory plays 
out in practice. My suspicion is that Washington is going to 
have a hard time capitalizing upon the very public disarmament 
friendly position that the President has been taking.
    Part of this is a problem of expectations. After a year of 
playing to the disarmament grandstands with Prague and the 
Nobel Prize and all that sort of thing, I think the intended 
audience for some of this credibility thesis disarmament 
positioning will be struck perhaps more powerfully by the 
degree to which in the current Nuclear Posture Review, for 
example, many, if not most, of the positions and things 
articulated represent continuity rather than transformation of 
U.S. policy and things that from the disarmament community's 
perspective are entirely unwelcome, although I am certainly not 
complaining about them.
    With regard to the New START treaty, in addition to this in 
terms of its raw numbers it is not, frankly, that much of a 
change. Indeed, it may not be a change at all with regard to 
deployed warheads. There are problems with it, in my view--
linkages to missile defense, restrictions upon global strike, 
the failure to cover Russian rail mobile missiles, loss of 
telemetry data.
    I mean, you can go into the details of it, but in terms of 
the raw numbers, which is all that the disarmament community 
really looks at, this is not something that is terribly easy to 
sell as a dramatic step forward as it has been billed.
    I think for all of its sort of self-congratulatory media 
splash, last week's Nuclear Security Summit also represents a 
policy of general continuity. It builds only incrementally, if 
at all, upon the nuclear security policies that were developed 
by Bill Clinton and George W. Bush.
    These are not complaints from my perspective. I think 
generally that incremental, cautious progress is probably a 
wiser idea in this very complicated world than assuming that we 
can sort of remold reality to our whims and good intentions, 
but this is not something that will necessarily be sellable 
very easily amongst those whom it is the ambition of the 
credibility thesis most to influence.
    Let me say also I think the administration is basically 
right that the modernization focused elements that are stressed 
in the NPR with respect to our nuclear infrastructure, for 
example, are indeed consistent with a sincere commitment to 
disarmament.
    In my view, during whatever period it is that the Obama 
administration envisages occurring before some hypothetical 
future zero, and that period is likely to be very long even by 
their account, we will need to rely upon a smaller and ever 
smaller number of nuclear weapons and rely very much and more 
intensively upon any individual system.
    The alternative to modernization in that context and over 
that period is either de facto disarmament before it is wise or 
sane to take that step or in fact to let our lack of 
modernization become a break upon further progress, so even 
from the perspective I think of the Obama administration's 
supporters on the left, it ought to be on its substantive 
merits quite sellable that this position is in fact consistent 
with disarmament.
    My suspicion, however, is that it will be very difficult to 
make that sale. The optics are all wrong from the perspective 
of the global disarmament community, and my suspicion is that 
the credibility thesis, even if you accept its logical 
premises, which I don't, will be very hard to implement in 
practice.
    That said, I think provided that the issue of the Middle 
East or Iran doesn't in some fashion pop up to preclude 
consensus that at next month's RevCon I think it is likely they 
will produce some kind of consensus document. Many will take 
that production alone as the index of success. That I think 
would be a mistake. I don't think anybody here has any 
illusions that we should be looking to something a little bit 
more serious in order to judge whether the conference has been 
a success.
    I would encourage us of course to look at the underlying 
issue of whether it is in fact contributing to stopping the 
proliferation of nuclear weapons in the world. I was very 
struck, Mr. Chairman, by your comment at the very beginning 
describing a successful review conference as one that is united 
in its condemnation of Iran's nuclear program.
    That is a very substantive and very focused criterion for 
success that goes just beyond the sort of anodyne diplomatic 
production of a document that says nothing upon which everyone 
agrees. I would encourage that kind of thinking in how we 
approach evaluating whether or not the review conference has 
indeed made progress.
    I doubt that the Obama administration's gamble that our 
disarmament movement will produce some kind of a 
nonproliferation revolution in international diplomacy will get 
many results. I would, however, be very happy to be proven 
wrong.
    It is very, very late for countries around the world to 
start getting serious about nonproliferation compliance 
enforcement, and since we seem to be tying ourself to that 
credibility thesis train as a matter of U.S. policy right now, 
I dearly hope that it gets some results. It would be tragic 
were the entire thesis to end up being as hollow and empty as I 
fear that it is. Thank you, sir.
    [The prepared statement of Mr. Ford follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Berman. Well, thank you all very much. I will 
yield myself 5 minutes.
    I can't help but comment on the irony that I have listened 
to a number of my colleagues, on the other side, talk about the 
massive and dramatic change in our nuclear posture and the 
criticism attendant to that massive change and then to hear Dr. 
Ford--a member of the previous administration, chosen by the 
Minority--point out, ironically, that there is more continuity 
than dramatic change in the context of the Nuclear Posture 
Review and the agenda and the linkage between the disarmament 
goal as part of achieving the nonproliferation, the strategy 
basically.
    I would be interested in getting Mr. Albright's sort of 
response to some of your points, but is it your contention--I 
mean, you talk about betting the store on the credibility 
thesis. Are we really betting the store? Is it your contention 
that the administration has bet the store on this strategy?
    It has been involved in an arduous process that we don't 
know how it will end, but at least has Russia and now China 
negotiating the text of a Security Council Resolution, which we 
hope will lead to a much more robust level of sanctions by an 
EU and coalition of like minded countries that might create the 
kind of economic pressure that at least it is plausible to 
think could change behavior, although certainly not guaranteed.
    In other words, a lot of this stuff wasn't just done to 
have a nicer consensus statement at a Nuclear Review Conference 
in the upcoming couple of weeks, so when you talk about the 
Nuclear Posture Review being a continuation of--well, I guess 
two questions I would have is what multilateral successes via-
a-vis Iran did the previous administration have?
    And, secondly, based on your notion that this is pretty 
much a continuation of policies of the Clinton and Bush 
administration doesn't that at least imply that the sort of 
dramatic criticisms of these policies are not accurate?
    Mr. Ford. Well, if I might, sir? With respect to the NPR 
itself, the things that I like about it are things that 
represent continuity and indeed sort of hedging positions 
against future challenges and so forth.
    With regard to the credibility thesis and the belief that 
we are betting the store and particular things, one of the 
areas of the NPR that I think I like least is the new 
declaratory policy, and we have heard some of that talked about 
today.
    Twice in the NPR document it is stressed that that 
declaratory policy was adopted in order to--one of the two 
reasons that is given for its adoption is in order to persuade 
other countries to cooperate with us more on nonproliferation, 
so that is sort of the crystallization of the credibility 
thesis right there.
    With respect to nonproliferation successes, in the past 
obviously no one has----
    Chairman Berman. Your point is that that is not going to 
work?
    Mr. Ford. I think that is unlikely to work. Yes, sir. With 
regard to past nonproliferation successes, I am certainly not 
here to tell you that the Bush administration solved the Iran 
problem. No one in their right mind would suggest that.
    The international community generally for many years has 
struggled with this unsuccessfully, and one of the things I 
think that has been most frustrating is the degree to which 
after much criticism--I say this as a former Bush 
administration person.
    After much criticism for taking so-called unilateral 
approaches with regard to Iraq, we regarded ourselves as doing 
precisely what our critics had asked us to do when it came to 
Iran, trying to pursue it through the IAEA and multilateral 
fora, take it to the Security Council, which is the institution 
designed to deal with this, and only to find our steps at every 
point undercut by those who regarded that multilateralism as 
somehow being offensive simply by virtue of the fact that it 
was the U.S. that was trying it.
    Chairman Berman. One could draw two very different 
conclusions from that failure though.
    Mr. Ford. My conclusion is that I wish we had tried harder 
earlier, and if we had actually stuck to diplomatic 
multilateral pressure in mid 2003 instead of letting European 
enthusiasms to poke Uncle Sam's eye lead to a different 
approach we might have had more results out of Tehran.
    Chairman Berman. My time has expired. I may want to get 
back to this if we have a chance to another round. Mr. Burton 
is recognized for 5 minutes.
    Mr. Burton. You know, Mr. Chairman, I don't care who did 
what in the past. It makes no difference to me. What bothers me 
is that Iran and Korea continue down the path toward developing 
nuclear weapons that endanger that entire region and ultimately 
the United States of America. That is all I give a damn about. 
I don't care who had what for dinner yesterday. It makes no 
difference to me.
    What I am concerned about is where we are today and where 
we are going, and I think it is extremely important that we 
adopt a policy, whether it is at these summits, and I am not as 
optimistic about the summit that we had. I know they talked 
about a lot of things and that is good, but as far as coming up 
with some kind of a conclusion on how to deal with the 
terrorist states that are developing nuclear weapons, I didn't 
see anything that came out of it that was really tangible.
    And so my goal is to have experts like the gentlemen who 
are there at that table to come up with some solutions or 
recommendations that we can implement that will put so much 
pressure on Iran and North Korea that we will be able to stop 
their development program and get them to start to comply with 
nuclear nonproliferation.
    I know that we tried during the Clinton administration. I 
know the President worked very hard to work out some solutions, 
but North Korea thumbed their nose. They took advantage of it 
and thumbed their nose at us. I am not blaming Clinton for 
that. He tried. I think the things that were tried in the Bush 
administration and there has not been a success.
    The thing I wish we would start focusing on is Iran has 
money in banks. Iran has assets around the world. Iran imports 
all kinds of gasoline because they can't produce it themselves. 
They produce oil, but not the final product. What we ought to 
do is we ought to come up with a plan to block them from 
getting anything and any of our allies that aren't complying 
with us, we ought to put pressure on them to work with us. We 
have trade agreements. We have all kinds of agreements with 
them that could be utilized to put additional pressure on them.
    Every day that goes by that these countries continue to 
develop nuclear weaponry the world comes a little closer to a 
major conflagration. Ahmadinejad is telling all these people 
that are blowing themselves up and he is sending weapons in to 
Iraq and elsewhere and saying that they are going to go to 
Valhalla or wherever it is and get 70 virgins if they blow 
themselves up and people are doing that. Think what is going to 
happen if they get a briefcase nuke and they come within six 
blocks of this place. We will all be toast.
    And so it is extremely important that we do whatever is 
necessary quickly to stop the proliferation of nuclear weapons, 
particularly where terrorist states are involved, and I am 
talking now about Iran and Korea and potential other states.
    And so I really appreciate you gentlemen for being here, 
and I am not asking any great questions, but this is what I 
would like to see all of the intellectual experts, and you are 
among them, to focus on. What can we do to really put the 
hammer down--the hammer down--on these people?
    I mean, having a nuclear summit and everybody talking about 
long-term nonproliferation and things that we ought to be doing 
collectively to solve the problem, that is great. That ain't 
solving the problem. Iran is going down that road. They are 
thumbing their nose at everybody else. They are not changing.
    North Korea, they have been thumbing their nose and they 
have been making agreements and then violating them. I don't 
think you can trust these people. And so what you have to do 
with a bully in a schoolyard or in a world theater is you have 
to let them know that if they continue down the path their 
bloody nose is going to be worse than what they are going to do 
to somebody else, and I think that is what we have to get 
across.
    I know I am putting this in very strong laymen's terms. I 
am not using the hyperbole that our intellectual community is 
really used to, but I grew up in a tough area and I know one 
thing; that bullies only understand one thing and that is the 
fear of retribution and the fear of really getting clobbered, 
and that is what we need to do.
    We need to get down to the nitty-gritty and let Iran know 
that they are going to suffer dramatically economically and 
every other way if they don't stop this and that they know that 
if they continue there will be retaliation, which will be 
unthinkable. And that is why I say I don't think we should rule 
out anything when we are talking about dealing with any of 
these countries.
    I know the President didn't rule out that with Iran, but I 
think that we ought to keep everything on the table because we 
don't know what is going to happen in the future. That is the 
end of Burton's sermonette for the day.
    Chairman Berman. Perfect timing. The gentleman from 
California, Mr. Sherman?
    Mr. Sherman. My sermon will be short. Here in Congress we 
try to find partisan divides so we can yell yea for our team. 
The fact is, for the past 10 years, three administrations, we 
have seen continuity and failure with regard to North Korea and 
Iran.
    With North Korea we have stopped pretending that we are 
trying to do anything, and with Iran we have shown the capacity 
to generate big headlines about the modest possibility of 
enacting tiny sanctions, so this is something that both parties 
are united in, at least the administrations of both parties. I 
am speaking now of proliferation and North Korea and Iran. 
Obviously the Nuclear Security Summit was an important step 
that the President deserves credit for.
    Mr. Albright, China has apparently agreed to disregard the 
guidelines of the Nuclear Suppliers Group and construct two new 
reactors in Pakistan, even though the guidelines prohibit such 
trade with a country without comprehensive safeguards on its 
nuclear activities with the exception, specifically, of India.
    I understand China claims that these new reactors were 
grandfathered in the contracts for the first two it built 
before it joined the Nuclear Suppliers Group. Is that even 
factually accurate? Is it legally accurate that you can say 
well, we are joining the Nuclear Suppliers Group, but we get to 
violate it to the extent we have any preexisting contractual 
relationship, and should this issue come up at the NPT RevCon?
    Mr. Albright. I am sure China can make the argument about 
grandfathering. It has been used many times. Russia has used 
it. I don't think we have, but it is an unfortunate reality.
    I would actually share your sentiment on China. Let me give 
you an example. Iran and North Korea get many of the things 
they need for their nuclear program--machine tools, materials, 
all kinds of equipment--via China, and the reason is simple. 
China has export control laws, but they don't enforce them.
    I think one of the things that certainly is something that 
should be done on Iran is convincing China to just enforce its 
laws. We see over and over again cases of Iran and North Korea 
buying vital things--centrifuge related equipment--in China. If 
the United States was able to, and its allies, convince China 
to stop that, live by its laws, it could seriously impede Iran 
and North Korea's ability to expand their nuclear programs.
    Mr. Sherman. We will do that right after they adhere to 
their laws on intellectual property.
    Mr. Albright. But it can be done.
    Mr. Sherman. It can be done, except China has learned that 
it has total access to U.S. markets, total domination of the 
American political system and strong alliances with Wall Street 
and Wal-Mart and so they don't have to do anything they don't 
want to do, including enforce their own laws. Let me move on to 
the next question.
    Mr. Albright. Let me disagree with that.
    Mr. Sherman. Let me move on to the next question.
    Mr. Albright. All right.
    Mr. Sherman. What are the prospects for agreement among the 
NPT states that all members should sign and bring into force an 
Additional Protocol for safeguards with the IAEA? Mr. Albright 
and any of the other witnesses as well?
    Mr. Albright. Yes. It is great disappointment. I mean, we 
were up in New York visiting many delegations a couple weeks 
ago, and it is not good. It is very disturbing because it is a 
massive loophole in the system that allows countries to cheat.
    I think the IAEA actually made a huge mistake by making the 
Additional Protocol a voluntary endeavor, and I think we are 
going to suffer consequences because of that. I am encouraged 
that the United States and many other nations----
    Mr. Sherman. Is there any feeling among any of those 
delegations that they could lose any trade or aid with the 
United States if they take a position that is an anathema to 
the security of people in the San Fernando Valley?
    Mr. Albright. I would hope that as the conference goes on 
that threats will be made. I mean, it is not quite the time.
    Mr. Sherman. But so far no. Let me move on to the second 
witness.
    Mr. Luongo. I am sorry?
    Mr. Sherman. Can you address the question, Mr. Luongo?
    Mr. Luongo. I am not an expert on the NPT Review 
Conference.
    Mr. Sherman. Okay.
    Mr. Luongo. I would pass.
    Mr. Sherman. Mr. Ford?
    Mr. Ford. I think it is very distressing that no further 
countries have accepted the AP. Indeed, there are countries 
that have yet to accept even basic safeguards agreements, which 
is also depressing and indeed required by Article III. There is 
a very, very long way to go on all these points, and I am aware 
of no threats at all, sir.
    Mr. Sherman. It is time for civil defense. I yield back.
    Mr. Albright. Can I? No?
    Chairman Berman. We will get back to you. Mr. Rohrabacher?
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
would certainly like to identify myself with the remarks of Mr. 
Sherman, who always astonishes me with his very realistic 
approach to some of these things, and let me just note 
especially about China. Just a few comments on some of the 
testimony we heard today.
    A reduction in raw numbers in terms of the raw numbers of 
nuclear weapons is a good deal. I mean, actually if it saves us 
money to have raw numbers at a lower level and permits us to 
use that money for perhaps some other things that are important 
to our national security then the reduction of raw numbers is a 
good thing even if it is not a balanced agreement that leads to 
that reduction of raw numbers, meaning that we have given up 
more than someone else, as long as what remains among those raw 
numbers is an adequate force to ensure our national security, 
and that is what it is all about.
    In terms of continuity, as was pointed out by our chairman 
and by Mr. Ford, again I agree with Mr. Sherman that continuity 
doesn't mean a damn thing if it is the continuity of policy 
that has led us to the mess that we are in right now. And the 
challenges especially in Korea and in Iran show that a 
continuity of that policy is a mistake, is wrong, and we should 
have the courage to face that and try to come at these things 
with a different approach.
    But to that continuity it appears to me, Mr. Chairman, yes, 
there is a continuity of policy of this administration, but now 
we have added idealistic rhetoric about disarmament, 
reaffirming again some things and stating this, which I believe 
is dangerous because it gives people, evil people, the idea 
that oh, yes, these guys are idealistic enough to disarm.
    We have also added ambiguity. This administration has added 
ambiguity about the use of nuclear weapons, which again is 
dangerous. Idealism is fine, but idealism if it is expressed by 
people in power could very well encourage evil realists, and 
there are evil realistics in this world.
    The evil realists are the ones who murder their own people 
to stay in power. The evil realists of this world could care 
less about agreements that they have or treaties that they sign 
because they are willing to murder their own people to stay in 
power. Who cares whether they are lying or not. They certainly 
don't.
    Chairman Berman. Would you yield for 1 second on that 
point?
    Mr. Rohrabacher. I certainly will, sir.
    Chairman Berman. Thank you. I thought the criticism of the 
Nuclear Posture Review is that it went away from ambiguity, 
that our previous posture was what we would do in response to 
different kinds of attack was not clear. We essentially 
reserved many different options and never indicated our 
thinking about what we might do.
    Mr. Rohrabacher. Mr. Chairman, the ambiguity I am talking 
about of course is the expressions that we have heard from the 
administration officials recently about whether or not we would 
use nuclear weapons.
    Chairman Berman. But they have gotten clearer. It may not 
be right, but it is clearer.
    Mr. Rohrabacher. I think from what we have heard as an 
answer today indicates that it is not clearer and that there is 
ambiguity that has been added.
    What we are really talking about, by the way, when we talk 
about nuclear weapons and whether or not the goal should be 
elimination of nuclear weapons, what we are really talking 
about is mass killing. It is not a nuclear weapon in and of 
itself is an evil, an immoral weapon system any more than a 
machine gun. We are talking about mass killing and we need to 
stop the potential of mass killing of Americans in terms of 
nuclear weapons.
    We need a missile defense system that can deal with a 
threat from an evil person who has power in another country in 
order to conduct mass killings. We also need a robust 
intelligence system. Both of those are prerequisites to dealing 
with this threat.
    One last note, and that is China. I would suggest that Mr. 
Sherman is exactly correct and that we have an establishment, a 
financial and economic establishment, in this country that is 
making a profit from a relationship with China and it has 
prevented us from dealing with those policies that China is 
following that are harmful to our national security. Thank you, 
Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. The 
gentlelady from California is recognized for 5 minutes.
    Ms. Woolsey. Well, thank you, Mr. Chairman. I am going to 
have a little different twist on all of this actually talking 
about unless we have more the United States will be at risk. We 
will be at risk if we don't build up and if we let people know 
that we are diminishing our nuclear arms, et cetera, et cetera.
    I think the world is at risk. I think humanity is at risk 
unless we find a way to do away with all nuclear weapons 
period. I believe it with all my heart and soul. It may not 
be--well, it won't be--in our lifetime, but it will be in 
somebody's, and that will be the end of it.
    So for several Congresses now I have introduced resolutions 
to reform our international security policies. One is H. Res. 
363, which is a resolution calling for the adoption of a smart 
security platform for the 21st century, and the other is H. 
Res. 333, a resolution recognizing nonproliferation options for 
nuclear understanding to keep everyone safe. No nukes it is 
called, so obviously you know what that is about.
    These resolutions seek to promote a more effective national 
strategy focused on nonproliferation, conflict prevention, 
international diplomacy and multilateralism over military and 
nuclear threat because the way we have been doing it ain't 
working. It is not going to work.
    Every day it becomes more dangerous, not less dangerous, 
and until we get on the way to think about dealing with 
humanity in a smarter way I just--I mean, we can sit here and 
work on our little years that we will be on this earth, but I 
will tell you we are not doing anything enough to take care of 
the future of all of humanity.
    So my question would be to you will the upcoming conference 
and will the treaty ratifications fit into a smarter security 
platform? Gulp.
    Mr. Albright. No. I think again the Non-Proliferation 
Treaty Review Conference from an outsider's perspective----
    Ms. Woolsey. Yes.
    Mr. Albright. I mean, we will be observers there. I have 
gone or my organization people have gone since 1985. You are 
trying to build support. I mean, for example, for us the 
Additional Protocol is critical and what we would like to see 
is more support among nations that that is the international 
norm.
    The next step is to encourage more countries like 
Australia. They just said look, you want our uranium? You 
better have an Additional Protocol or you don't get it. So in a 
sense unilateral initiatives.
    The United States has taken a bilateral initiative that we 
are going to have nuclear cooperation with an NPT party that is 
a nonweapons state. They have to have an Additional Protocol in 
place. With UAE we insisted no reprocessing or enrichment. 
Multilaterally, we have to push much more strongly in the IAEA 
that it is a condition or it is a norm to have the Additional 
Protocol, not just some favor----
    Ms. Woolsey. Right.
    Mr. Albright [continuing]. That you are doing the 
international community. I could go into other issues where you 
can pick up the strain. It happens before the conference. Kind 
of a lot of these things converge in the conference and it is a 
good opportunity to build support for these things and then you 
go out into the other places and try to implement them.
    Ms. Woolsey. Mr. Luongo?
    Mr. Luongo. Thank you. I would say I think we are building 
a smarter security platform. I mean, this spring we have dealt 
with the issue of nuclear weapons in the United States and 
Russia in the START treaty, which is in part a holdover from 
the Cold War and in part will help us I hope with the NPT 
Review Conference.
    We have then dealt with this very difficult issue of 
keeping nuclear material out of the hands of terrorists. I 
don't think we have dealt with it completely adequately, but we 
have really raised the profile of that issue around the world, 
and I think that that is really important because that is a 
21st century threat.
    And then finally the NPT Review Conference I think is going 
to be, as everyone has said, a very, very difficult lift, but 
that is really about states getting nuclear weapons. I am less 
worried about states getting and using nuclear weapons than I 
am about terrorists getting and using nuclear material.
    Ms. Woolsey. Doctor?
    Mr. Ford. If I might add also, with respect to the utility 
of the review conference sometimes negative information is good 
to have as well. It is fundamentally about building support in 
a political sense, but it is also sometimes very nice to know 
when there isn't support nonetheless.
    I mean, if we come together after all of this preparation 
to make a big pitch that everyone should now cooperate because 
we make a big show of acting like we are disarming faster and 
they still don't cooperate, that may actually give us some very 
useful information about where the shared values really aren't 
and perhaps lead us to think a little bit more broad mindedly 
about how to deal with building a truly smart security platform 
in light of that in the future too.
    Ms. Woolsey. Thank you.
    Chairman Berman. I am going to recognize myself for one 
more round if you guys aren't so hungry that you can't stay 
here anymore.
    No one talks about amending the NPT. You are talking about 
strengthening the IAEA hopefully based on something in the 
conference review file document if that is possible, but in any 
event is the IAEA doing something that will require countries 
to accept the Additional Protocol. What is the IAEA's power to 
do that and how would they enforce a desire to do that?
    Mr. Albright. The IAEA would act strictly at the level of 
the Secretariat, the Director General. It would just be saying 
that without it I can't do much. I mean, you ask me to inspect. 
Without that in place I can't do anything.
    Chairman Berman. All right.
    Mr. Albright. So you need those kinds of statements and 
recognitions at the IAEA and I think with Mohammed ElBaradei 
sort of gave up. I mean, he was moving toward that because how 
many times do you have to get burned before you see the 
inevitable conclusion? We are hoping that with the new DG that 
there will be more support for that.
    Chairman Berman. All right. So the Secretariat and the new 
Director General says that. And then what happens?
    Mr. Albright. Well, first of all you would like it at the 
Nuclear Suppliers Group. One thing that happened in the 1990 
conference was Foreign Minister Genscher came from Germany, 
representing one of the last holdouts said look, if we are 
going to be supplying nuclear items countries have to have full 
scope or comprehensive safeguards. They can't just pick and 
choose and get the safeguards on what they get and ignore 
safeguards on the rest.
    And so his statement at the NPT was a recognition that the 
time had come to implement that and then it was implemented at 
the Nuclear Suppliers Group. So, the NPT can serve as a way to 
solidify consensus and then stimulate action. And certainly as 
it has been pointed out, it has no real power by itself.
    On the Additional Protocol at the IAEA, I don't know the 
legal mechanisms they could use. They are probably limited, but 
they can start making it tougher, for example, for countries to 
get technical assistance. They can start raising questions much 
more aggressively about where they are lacking the ability such 
as in Syria.
    Syria refuses to cooperate with the IAEA. They are not held 
in noncompliance. I personally think the IAEA should be much 
more aggressive with Syria and perhaps threaten them with 
noncompliance.
    Chairman Berman. And I guess the Bush administration got 
the IAEA to go to the Security Council and make referrals to 
the Security Council. What we got from the Security Council was 
pretty minimal, but there was a process there which----
    Mr. Albright. For both Iran and North Korea.
    Chairman Berman. Right.
    Mr. Ford. If I might add, sir? It is also worth pointing 
out I think that there are ways to make progress that don't 
require necessarily going through--on some issues that don't 
require going through all the procedural formal hoops too.
    I mean, all of what David said I think is quite right, but 
many members this morning mentioned the issue of Article IV and 
how the peaceful uses component of the NPT has sort of been 
weirdly twisted around in recent years to become a weapon 
against the nonproliferation core of that same treaty.
    One can make progress on those issues to a degree without 
going through the difficult and perhaps impossible process of 
actually amending the treaty simply by creating a counter 
narrative, and so far I think to our shame the United States 
Government has not created a counter narrative on Article IV. 
There are things to be said to attack the Iranian inspired 
interpretation.
    Chairman Berman. The conditionality of the right to have 
nuclear energy.
    Mr. Ford. Right. The fact that this does not entail a 
right. Everyone in the world can have a full fuel cycle if they 
wish to. That kind of sharing of benefits needs to be 
understood through the prism of proliferation good sense.
    Chairman Berman. But the Nuclear Suppliers Group could do 
that in a nanosecond, if they wanted to.
    Mr. Ford. The Iranians have made the argument that it is 
somehow a violation of Article IV for there even to be nuclear 
export controls and yet the developed countries who one would 
think would have a little more good sense on such matters have 
been very much afraid of taking up public positions to 
contradict the narrative that there is an inalienable right to 
any kind of nuclear technology one wishes as long as it is used 
for peaceful purposes.
    Chairman Berman. Do you agree with that?
    Mr. Ford. We don't have to concede that.
    Mr. Albright. No. It is a big problem. In fact, one of the 
reasons we started a project a couple years ago which led to 
this book, Peddling Peril, which thank you for mentioning, was 
that we really do need to think about this differently.
    Iran has gotten to the point internationally, particularly 
in the developing world, where it justifies nuclear smuggling, 
breaking our laws on Article IV. It is just we denied them the 
right. Therefore, they have the right to steal from us.
    So I think the narrative does have to be changed. I think 
there are two parts to it. One is that we have to recognize 
that these countries don't build nuclear weapons on their own. 
They are dependent on us in a sense--our suppliers, our 
companies--to pull this off. And the other is that it is 
illegal. It is a horrible action. It is very dangerous and only 
worsens our security and the international security for all of 
us.
    I think that we have to in that sense really change the 
narrative and put it out as in a sense illegal activities that 
violate Article I and Article II of the Non-Proliferation 
Treaty, or at least show that they intend to violate them.
    Chairman Berman. Mr. Burton?
    Mr. Burton. Yes. I just have a couple of questions. If we 
pass a very, very strong Iran sanctions bill that has teeth in 
it that says that there are going to be penalties for people 
doing business with Iran because of their nuclear program do 
you think it is possible--I mean, in the final analysis do you 
think it is possible--for us to pass legislation here in the 
Congress that will be effective enough to choke off the 
materials that they need to develop a nuclear weapons program, 
or does this have to be international in scope?
    Mr. Albright. It has to be international. They look for 
gaps.
    Mr. Burton. Okay. So if it has to be international this is 
an opinion I am asking for. Do you think it is possible that we 
can put enough teeth in there to put pressure on our allies who 
do business with Iran to choke off the materials that they 
need?
    Mr. Albright. I think the Europeans are helping quite a 
bit. I mean, there was a recent case of----
    Mr. Burton. I know, but that is not the answer. The answer 
I am looking for is----
    Mr. Albright. Can we do it?
    Mr. Burton [continuing]. Do you think it is possible to put 
enough pressure on them to choke----
    Mr. Albright. Yes. Yes. No. But it has to include countries 
like China too. It can't just be European allies. But, yes, I 
think it is----
    Mr. Burton. How would you do that with China?
    Mr. Albright. Well, one is no one has even asked them, as 
far as I can tell. I mean, this isn't sanctions. This is 
enforcing the existing laws on nuclear items and nuclear dual 
use items. There has not been much visible----
    Mr. Burton. Well, China in the past----
    Mr. Albright [continuing]. Requests to them by--I would 
even say by the United States of making it a priority.
    Mr. Burton. China in the past has not been----
    Mr. Albright. I guess you are disagreeing, but I----
    Mr. Burton. No. I am saying China in the past has not 
always been ready to acquiesce and work with us on issues of 
this magnitude, North Korea and so forth, so what can we do or 
what do you think we could do to entice China to change its 
policy so that they wouldn't be doing business with those 
countries?
    Mr. Albright. Well, I think one is I would say make it a 
public issue with them and make it an issue that you raise 
every time you meet them. The other is show how they are 
failing.
    We are engaged in efforts with companies to say look, here 
is Iran trying to get things. You should stop your own company 
that is involved in that.
    Mr. Burton. In other words, talk to American companies who 
are doing business with China and try and do it that way?
    Mr. Albright. Well, making sure that American companies 
understand they should be hyper suspicious about some of the 
orders they are getting in China and to make sure that they 
follow through with due diligence so that it doesn't end up 
where they may see it as a domestic sale that actually it is 
ending up in North Korea or in Iran.
    Mr. Burton. Well, do you know what I would like to have? If 
the chairman agrees, I would like to have something in writing 
from you on things that you think we can do to put pressure on 
these----
    Mr. Albright. Sure.
    Mr. Burton [continuing]. Because we are going to be going--
--
    Mr. Albright. I would like the opportunity.
    Mr. Burton [continuing]. To conference here pretty quick on 
this Iran sanctions bill.
    Chairman Berman. Can I just----
    Mr. Burton. Sure. I would yield to my colleague.
    Mr. Ford. Might I add a cautionary note too on this?
    Chairman Berman. There are two separate issues that we 
might be conflated here. One is a sanctions regime that is 
designed to put such a squeeze on Iran that it changes its 
mind.
    The second is what you have now referred to several times, 
which is to this day Iran is getting centrifuge technology and 
other things from other countries, which sound to me like it is 
illegal in terms of----
    Mr. Albright. It is illegal even under Chinese law in many 
cases.
    Chairman Berman. Right.
    Mr. Ford. In that regard, sir----
    Chairman Berman. Because that latter part, I have to tell 
you, I would like to hear more about that because I have 
assumed that notwithstanding the horrible record China has had 
on proliferation recently that has not been the issue with 
China or Russia recently, that whatever they were giving, 
whoever they were training, whatever in terms of their 
institutes with technology and know-how that that area--you are 
telling me that that is not so?
    Mr. Albright. Well, it is not a conscious government policy 
of China----
    Mr. Ford. That is my precautionary note.
    Mr. Albright [continuing]. To provide items. It is that 
Iran and North Korea find it very easy to go to China and 
acquire the items they need, and it could be from a European or 
U.S. supplier who has a subsidiary there, and the Chinese 
Government is not enforcing its laws.
    Chairman Berman. Well, and A.Q. Khan talked about all kinds 
of European companies that were----
    Mr. Albright. Well, other countries have faced the same 
problem.
    Chairman Berman. Yes, sir.
    Mr. Ford. I don't think it is a completely foregone 
conclusion that these things are happening entirely without the 
knowledge or at least tacit consent of the governments in 
question. I don't know the answer, but there is a narrative 
that says it is just a sort of an oops situation with respect 
to Chinese enforcement. That may be true.
    I was always struck, though, when I had some perspective, 
which I don't today, into the intelligence information on this 
sort of thing and who was actually making these transfers why 
one didn't see oops moments with regard to proliferation 
transactions to countries that China somehow considered to be a 
potential or actual strategic rival.
    You saw these things with Pakistan and Iran. You didn't see 
them with India, for example, or American companies, for that 
matter, getting sensitive goods from the Chinese.
    Chairman Berman. Because these are patriotic Chinese rogue 
companies?
    Mr. Ford. I don't know the answer, but I always worried 
that there was an element in this, and I think we ignore the 
possibility at our peril that China and Russia for that matter 
may somewhere in the back of their mind think it is kind of 
cool to mess with U.S. global strategy by in a sense at least 
turning a blind eye, if not actually facilitating the 
development of nuclear or near nuclear capabilities by 
countries that are perceived generally as being a problem for 
the United States in terms of its global strategy.
    Mr. Albright. Yes. I think that is always worth keeping in 
mind, but I think China several years ago was willing to put 
the pressure on the Chinese suppliers or trading companies to 
stop sales to North Korea and they did it to the point where 
North Korea even in a bilateral, according to a very senior 
Chinese official I talked to, complained that you were really 
cutting things off.
    Mr. Ford. It is a policy rheostat of theirs, and the trick 
is to get them to turn it down, but it is not an entirely 
autonomous----
    Mr. Albright. Yes. Well, let me give an example. Germany. 
Germany in the 1980s was a major supplier for proliferant 
states, and their government certainly knew it was happening. 
They didn't particularly have an interest in Iraq having 
nuclear weapons or Libya having chemical weapons, but they knew 
it was taking place and they wouldn't stop it.
    I would say that to first order right now we are dealing 
with China in that way. I think there is some interest in China 
that I would agree with Dr. Ford would like to see this, but I 
don't think it is Chinese Government policy at the highest 
levels to do this, and I think it is time that China be held 
accountable for this and press to stop it.
    If then they won't then we may have exposed a very 
fundamental problem with China, which I think we would have to 
address, but right now I think that to me it is a case of a 
country turning a blind eye and letting suppliers do things 
that they are not allowed to do legally.
    Mr. Burton. If the chairman would yield me a little extra 
time?
    Chairman Berman. It is your time.
    Mr. Burton. Well, my time has run out, but if you could 
just be a little lenient I would appreciate it.
    First of all, China is a totalitarian state. For somebody 
to tell me that they don't know that----
    Mr. Albright. It is a wild west.
    Mr. Burton. Come on.
    Mr. Albright. No. It is.
    Mr. Burton. Naivete is running rampant sometimes. I don't 
believe that. I believe that they know what is going on and 
that they probably have the ability to turn a blind eye and 
they probably do, but here is the thing. I would like to have, 
and I am sure the chairman would share in this.
    I would like to have any suggestions you have on things 
that we could do to put pressure on Russia, China or any of our 
allies that are doing business with Iran or Korea that is 
endangering the security of the region and the United States of 
America. I think it would be great because we have gone through 
this whole hearing, and what we are talking about right now is 
one of the most relevant parts of the hearing. It is how are 
they getting this stuff and how do we stop it and what kind of 
steps can we take to stop it.
    I have one more question real quick, and then I will let 
you guys go have lunch. It is a little late, but I wish you 
well. And that is I had a number of televised meetings with one 
of my colleagues that used to be close to the Russian Duma, 
Curt Weldon, who is no longer in Congress, and he brought 
before me a mockup of a briefcase nuclear weapon that the 
Russians had perfected that weighed about 40 pounds, and it 
could destroy eight square blocks--make it all a cinder--if it 
was utilized.
    They have never been able to account for about 50 of those. 
I just wonder if any of those got into the hands of, and you 
may not be able to answer this. If they got into the hands of 
the Iranians. I understand they have to be upgraded and 
additional materials have to be put in them, but are they 
capable?
    Are they in the process or could they be in the process of 
developing these nukes that could be put in a backpack or 
briefcase that could get into the United States and do as much 
damage in the short run as a major nuclear weapon?
    Mr. Luongo. Well, the Russians developed very small, 
tactical nuclear weapons that could be man portable. They had 
atomic demolition mines and other things. It is true that the 
material in those weapons, just like in other Russian weapons, 
deteriorates at a more rapid pace than say other countries. I 
don't know how many have not been accounted for. The Russians 
have not been particularly transparent.
    Mr. Burton. Well, we talked to people in the Duma and the 
KGB, Mr. Weldon did, and he assured me there were about 85 to 
100 produced and they can only account for about 35 to 40 of 
them.
    Mr. Luongo. Yes. I am familiar with former Congressman 
Weldon's statements on the subject. The Russians I think have 
assured the United States Government that they are not floating 
around. That is my understanding at least.
    Mr. Albright. Yes. If I could add? On Iranian capabilities, 
according to the IAEA reporting both internally, and we have 
put some of the sort of internal documents that were linked out 
on our Web site. They are looking for a warhead that is about 
.6 meters across. It is not that big. It will weigh several 
hundred kilograms.
    But still, they are shooting for a small warhead and the 
assessments by the IAEA are that they can do that. It may not 
be reliable, and they have some work to do to finish that, but 
essentially their focus is on smaller weapons.
    Mr. Burton. Would that be portable, something that could be 
carried?
    Mr. Albright. Well, sure. It is not going to be carried on 
someone's back, but it is not hard to transport that kind of 
thing.
    If you are talking about unsophisticated delivery systems, 
you have to worry a great deal about Iran having enough highly 
enriched uranium for a nuclear weapon. We shouldn't just think 
of it as they have the material and then somehow we have 3 or 4 
years before they could actually mount it on a missile.
    The problems of putting it on the missile are quite a bit 
more than if you just wanted to put together a smaller nuclear 
weapon that would not have to survive the harsh environment 
that a missile would have to go through, so I think we do have 
to worry that if Iran does make a move to get HEU and it gets 
it that we have to worry a great deal about unsophisticated 
delivery systems.
    Mr. Ford. If I might add, sir, on the note of Iranian 
acquisition of material, there are some famous problems with 
sort of the infamous 2007 national intelligence estimate on 
Iran that the U.S. intelligence community put out, but one of 
the interesting and much overlooked comments in there was the 
assessment or the suspicion with a degree of certainty--I have 
forgotten how probable they thought it was, but it was 
believed, as I recall, that Iran had indeed acquired through 
sort of smuggling links or something, had acquired some 
quantity of fissile material.
    Not weapons. That was not the statement, but the idea was 
that they probably had not acquired enough to use that material 
in a weapon, but that there had indeed been essentially 
smuggling derived acquisition of fissile material by the 
Iranian regime probably from the former Soviet Union, but I 
don't think it was explicitly said.
    But quite apart from the issue of backpack nukes, I mean, 
there was already stuff out there about Iran having acquired 
fissile material on presumably international black markets.
    Mr. Burton. Thank you, Mr. Chairman.
    Chairman Berman. I will close with just this article dated 
today on NPR. It is on their Web site anyway. Algeria, Egypt, 
Kuwait, Libya and Syria and others made it clear at a 
disarmament meeting at the U.N. General Assembly that they 
would oppose a series of U.S. backed measures, including a 
proposal to strengthen U.N. scrutiny of countries' nuclear 
energy programs designed to reign in nuclear proliferators like 
North Korea and Iran.
    There is mistrust, said Egypt's U.N. Ambassador, chairman 
of the Non-Aligned Movement. Speaking for the General Assembly 
debate entitled Disarmament of World Security, the Egyptian 
envoy said the five major nuclear powers are seeking to impose 
new demands on non-nuclear powers while failing to fully live 
up to their own disarmament obligations and permitting a 
special group of actors--Indian, Israel, Pakistan--a free pass 
to produce nuclear weapons without having to abide by the 
obligations of signatories.
    The Ambassador thought to turn the tables on the big 
powers, demanding the nuclear states submit themselves to U.N. 
inspections under their nuclear programs and commit to the 
total elimination of atomic weapons by a certain date and 
indicated his opposition to a series of Western-backed 
initiatives to punish countries who withdraw from the NPT and 
plan to establish a U.N. fuel bank to supply nuclear non-
nuclear states.
    Maybe an argument for your theory of the credibility issue 
here in terms of what we are doing, but I am curious. Is this 
just sort of ideological and stick your thumb in our eye, or 
for Egypt, let us say, is this a hedge based on what Iran might 
achieve to give them sort of the flexibility to make their own 
moves in response?
    Mr. Ford. I have made that suggestion publicly myself, what 
you are just suggesting, and I was intrigued to hear it from 
Ambassador Burk here a little while ago. She chastised me at a 
conference last fall for having the bad manners to articulate 
that theory to the Egyptian representative present, but I am 
glad to see that it is in fact an Obama administration concern 
as well that we share that.
    I am very worried about this. The Egyptians in particular, 
but not exclusively, have been laying the groundwork for a 
diplomatic campaign to raise the Israeli issue for some time. 
We have seen that over the past several years with what gives 
every appearance of being a very systematic campaign to prepare 
for some kind of an ultimatum of sorts, whatever you want to 
call it, in connection perhaps with this RevCon.
    What they demand has never been particularly clear to me. 
What they would consider to be resolution of the problem in 
practical terms, as opposed to pie in the sky terms, has never 
been very clear to me, and it is very possible that the 
coincidence of all of these issues having been raised in the 
wake of the outing of Iran's secret nuclear work in 2002 is no 
coincidence at all and that this is in fact some kind of a 
hedge.
    I can't say that that is the case. I worry about it very 
much, and I am glad that it is actually publicly being talked 
about.
    Mr. Albright. I think both are going on. This is the 
rhetoric you run into at this conference, and it is the job of 
the United States and its allies to come up with decent 
language that serves U.S. and nonproliferation interests.
    In fact, I can tell you that senior Egyptian officials have 
said who are in the government--they claim they are talking 
privately, but they said look, if this plays out with Iran 
getting nuclear weapons, nothing is done about Israel, then we 
will probably withdraw. And then they add, of course, that of 
course we won't build nuclear weapons.
    I didn't think to remind them at the time that when North 
Korea withdrew in 2003 it said we will only do peaceful 
activities. So, I mean, I think we are heading to a very bad 
time potentially, and whether this nonproliferation regime 
continues is going to be based on what we do about Iran.
    Mr. Burton. I would like the other ideas.
    Chairman Berman. Great. We are very receptive to your 
ideas, but try to get them in before they have the nuclear 
weapon.
    The hearing is adjourned. Thank you all very much for your 
interest.
    [Whereupon, at 1:02 p.m. the committee was adjourned.]
                                     

                                     





















                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
